<html>
<title> - IMPACTS OF U.S. CONSUMER DEMAND ON THE ILLEGAL AND UNSUSTAINABLE TRADE OF WILDLIFE PRODUCTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
IMPACTS OF U.S. CONSUMER DEMAND ON THE ILLEGAL AND UNSUSTAINABLE TRADE 
                         OF WILDLIFE PRODUCTS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                      Tuesday, September 16, 2008

                               __________

                           Serial No. 110-84

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
44-484 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 16, 2008......................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     2

Statement of Witnesses:
    Allan, Crawford, Director, TRAFFIC North America.............     8
        Prepared statement of....................................    10
    Bigue, Marcel, Deputy Director, WildAid......................    18
        Prepared statement of....................................    20
    Kowalski, Michael J., Chairman and Chief Executive Officer, 
      Tiffany & Co...............................................    22
        Prepared statement of....................................    24
    Perez, Benito A., Chief, Law Enforcement, Fish and Wildlife 
      Service, U.S. Department of the Interior...................     4
        Prepared statement of....................................     5
    Sebunya, Kaddu Kiwe, Director of Program Design, African 
      Wildlife Foundation........................................    25
        Prepared statement of....................................    26


OVERSIGHT HEARING ON THE IMPACTS THAT U.S. CONSUMER DEMAND IS HAVING ON 
 THE ILLEGAL AND UNSUSTAINABLE TRADE OF WILDLIFE PRODUCTS, AND ONGOING 
 AND PROPOSED EFFORTS TO INCREASE PUBLIC AWARENESS ABOUT THESE IMPACTS.

                              ----------                              


                      Tuesday, September 16, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:08 a.m. in 
Room 1324, Longworth House Office Building, The Honorable 
Madeleine Z. Bordallo [Chairman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Kildee, 
Faleomavaega, Pallone, Capps, Saxton and Young.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. Good morning, everyone. The oversight hearing 
by the Subcommittee on Fisheries, Wildlife and Oceans will now 
come to order.
    The Subcommittee on Fisheries, Wildlife and Oceans meets 
this morning to hear testimony on the impacts that the U.S. 
consumer demand is having on the illegal and unsustainable 
trade of wildlife products and ongoing and proposed efforts to 
increase public awareness about these impacts.
    Pursuant to Committee Rule 4(g), the Chairwoman and the 
Ranking Minority Member will make opening statements.
    On March 5, 2008, the Committee on Natural Resources held a 
hearing entitled ``Poaching American Security, Impacts of 
Illegal Wildlife Trade.'' During this hearing we heard about 
the serious consequences of the global illegal wildlife trade, 
including the threats to our national security, to human 
health, and to biodiversity.
    The Committee's investigation also revealed that the U.S. 
is largely driving this trade, with the value of wildlife 
imports to the United States more than doubling over the past 
eight years.
    Yet, while the U.S. consumer is, in many cases, unwittingly 
fueling the illegal and unsustainable trade of wildlife and 
wildlife products, the U.S. strategy to educate consumers is 
woefully lacking in resources at the Federal level, and is 
largely left to private and nonprofit organizations.
    Without awareness and education, American consumers will 
continue to make uninformed decisions that contribute to this 
growing problem.
    Those few governmental, private, and non-governmental 
organizations that have empowered consumers to make choices 
that also promote the conservation of wildlife stand out. 
Through advertising, marketing, and education, these groups 
have started to address the illegal and unsustainable trade of 
wildlife and wildlife products.
    So I look forward this morning to hearing from our 
witnesses, whose testimonies will highlight these pioneering 
initiatives to build public awareness about this illegal trade. 
And I also look forward to hearing suggestions for possible 
Congressional action that may expand our national education 
efforts to address this growing problem.
    And now at this time I recognize Mr. Brown, the gentleman 
from South Carolina, the Ranking Republican Member, for any 
statement he may have.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    The Subcommittee on Fisheries, Wildlife and Oceans meets this 
morning to hear testimony on the impacts that U.S. consumer demand is 
having on the illegal and unsustainable trade of wildlife products and 
ongoing and proposed efforts to increase public awareness about these 
impacts.
    On March 5th, 2008 the Committee on Natural Resources held a 
hearing entitled ``Poaching American Security: Impacts of Illegal 
Wildlife Trade.'' During this hearing we heard about the serious 
consequences of the global illegal wildlife trade, including the 
threats to our national security, to human health, and to biodiversity. 
The Committee's investigation also revealed that the U.S. is largely 
driving this trade, with the value of wildlife imports to the U.S. more 
than doubling over the past 8 years.
    Yet, while the U.S. consumer is, in many cases, unwittingly fueling 
the illegal and unsustainable trade of wildlife and wildlife products, 
the U.S. strategy to educate consumers is woefully lacking at the 
Federal level and is largely left to private and non-profit 
organizations. Without awareness and education, American consumers will 
continue to make uninformed decisions that contribute to this growing 
problem.
    Those few governmental, private, and non-governmental organizations 
that have empowered consumers to make choices that also promote the 
conservation of wildlife stand out. Through advertising, marketing, and 
education, these groups have started to address the illegal and 
unsustainable trade of wildlife and wildlife products.
    I look forward to hearing from our witnesses, whose testimonies 
will highlight those pioneering initiatives to build public awareness 
about this illegal trade. I also look forward to hearing suggestions 
for possible Congressional action that may expand our national 
education efforts to address this growing problem.
                                 ______
                                 

       STATEMENT OF THE HONORABLE HENRY E. BROWN, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madame Chair. Today we continue our 
review of the international and domestic wildlife trade, while 
focusing on the consumer's demand for animals. This is not a 
new issue or concern; in fact, this Subcommittee held one of 
its first oversight hearings on the emerging bushmeat crisis 
more than six years ago.
    This Subcommittee moved historic legislation to establish 
the Asian Elephant Conservation Act, the Great Ape Conservation 
Act, the Neotropical Migratory Bird Conservation Act, and 
Marine Turtle Conservation Act to provide grants to conserve 
these bellwether species.
    In fact, the former Chairman of this Subcommittee, 
Congressman Jim Saxton, sponsored the Rhino and Tiger Product 
Labeling Act of 1997, a landmark conservation measure that 
banned all products that contained rhino or tiger parts.
    In countries such as China, it is part of their cultural 
heritage to use animal parts for medicinal purposes. It is my 
firm belief that most U.S. consumers want to protect threatened 
and endangered species, though many times they fail to 
understand the relationship of how these animals come into the 
international market.
    For instance, how many Americans understand that the 
tropical fish they will buy and adopt as a loved pet may have 
been illegally captured through the use of cyanide? In terms of 
the bushmeat crisis, we know that more than one million metric 
tons of wildlife are being killed each year in Central Africa. 
While much of the meat is being eaten by 26 million starving 
people living in the region, there is ongoing demand for this 
meat in upscale restaurants in Central Africa, where a diner 
can choose a gorilla steak as their main course.
    I am deeply offended by this practice. By consuming this 
highly endangered species, consumers are simply enriching the 
lives of wildlife poachers, and fueling the demand for further 
killing.
    We also know that in this country, more than 200 million 
live animals enter this country each year. While it is not 
clear how many were illegally captured, the U.S. Fish and 
Wildlife Service is able to only inspect about 25 percent of 
those wildlife shipments. I look forward to testimony on how we 
can increase this inspection rate.
    Finally, there is no question that greater emphasis must be 
placed on educating the public. Years ago, the African Wildlife 
Foundation had a slogan that only elephants should wear ivory. 
This powerful message was instrumental in the enactment of the 
African Elephant Conservation Act of 1988. President George H. 
Bush banned carving ivory and greater national protection.
    While visiting wildlife in places like the Myrtle Beach 
Safari and our excellent Charleston Aquarium, people have a 
greater appreciation for wildlife, and are willing to join the 
fight to stop these species from being slaughtered. Sadly, at 
today's gas prices, it is difficult for many families to make 
these trips, and we are losing valuable voices for 
conservation.
    The Democrat Alice-In-Wonderland energy policy is mind-
boggling. We are the only nation in the world where the 
leadership in this Congress believes that our vast untapped 
energy resources are a curse, and not a blessing, for the 
American people.
    We should do more to conserve wildlife, to educate more 
Americans to the evil of poaching, and to stop the largest 
transfer of wealth in the history of this nation by utilizing 
our own domestic oil and gas resources.
    And with that, I yield back the balance of my time. Thank 
you, Madame Chair.
    Ms. Bordallo. I thank the Ranking Member for his opening 
statements. And now I would like to introduce the witnesses at 
our table. We have just one panel this morning.
    First, Mr. Benito Perez, Chief, Office of Law Enforcement 
U.S. Fish and Wildlife Service; Mr. Crawford Allan, Director of 
TRAFFIC North America; Mr. Marcel Bigue, Deputy Director of 
WildAid; Mr. Michael Kowalski, Chairman and CEO of Tiffany & 
Company; and Mr. Kaddu Sebunya, Director of Program Design, 
African Wildlife Foundation. I want to thank you all for being 
here today.
    Before we begin, I would like to, in case there is any 
misconception, the suit I am wearing is fake.
    We will begin with Mr. Perez to testify for five minutes. 
And I would note for all witnesses that the timing lights on 
the table will indicate when your time has concluded. Be 
assured that your full written statement will be submitted for 
the hearing record.
    Mr. Perez, you can now begin.

STATEMENT OF BENITO A. PEREZ, CHIEF, LAW ENFORCEMENT, U.S. FISH 
        AND WILDLIFE SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Perez. Thank you. Madame Chairwoman and Members of the 
Subcommittee, I am Benito Perez, Chief of the U.S. Fish and 
Wildlife Service's Office of Law Enforcement. I am pleased to 
be here today to discuss consumer demand for wildlife products 
and our office's role in educating the public about illegal 
wildlife trade.
    The Service is the lead Federal agency for wildlife law 
enforcement. Our mandate includes inspecting wildlife imports 
and exports for compliance with U.S. wildlife laws and 
regulations, intercepting illegal shipments, and investigating 
and dismantling wildlife smuggling networks.
    Our 120 wildlife inspectors stationed at 38 U.S. ports of 
entry focus exclusively on wildlife trade. Our 186 special 
agents investigate violations of all U.S. wildlife laws, 
including those that address global wildlife trafficking.
    Preventing illegal trafficking in global resources is a 
critical part of the Service's mission. Given the limited 
resources available to us, we must, out of necessity, focus 
primarily on core enforcement work in support of this goal. 
However, we recognize that public outreach and education can 
help raise awareness among those that are unwittingly 
contributing to a black market industry.
    Our wildlife inspectors deal daily with businesses that 
import and export wildlife and wildlife products. Much of our 
compliance outreach targets this wildlife trade community. 
Compliance outreach includes presentations and training 
programs for brokers' associations and industry groups. We have 
participated in annual meetings, conventions, and other forums 
sponsored by such groups as the Marine Aquarium Societies of 
North America, the National Association for the Specialty Food 
Trade, the Association of Chinese Herbalists, and Safari Club 
International.
    Our one-on-one compliance outreach efforts have included 
consultation with internet service providers, such as eBay, to 
assist them in establishing appropriate guidelines for online 
wildlife transactions, and with staff from major department 
store chains to help them meet requirements for importing 
fashion goods made from wildlife.
    We have also teamed with nonprofit groups to develop a 
conservation curriculum for traditional medicine schools in the 
United States, and have participated in industry-sponsored 
symposiums, addressing the use of protected wildlife and plants 
in traditional Chinese medicine.
    Our focus on compliance outreach is critical to our efforts 
to stem wildlife trafficking on the supply side. We have, 
however, also long recognized the importance of educating the 
general public.
    The latest edition of our buyer-beware brochure, co-
produced with World Wildlife Fund TRAFFIC North America, 
spotlights caviar, wildlife wolves, and exotic plants, in 
addition to such long-banned items as sea turtle and spotted 
cat products.
    A special Caribbean edition produced in both English and 
Spanish focuses on regional trade issues, warning travelers 
about purchasing products made from sea turtle, coral, queen 
conch, and other Caribbean species.
    A few years ago, we teamed with a number of nonprofit 
groups to update our Suitcase for Survival program, which 
utilizes seized wildlife items in a formal curriculum package 
to teach the public about conservation threats related to 
illegal wildlife trade. Last year alone, our national wildlife 
property repository provided over 3,000 items to schools, zoos, 
and other organizations seeking materials for use in 
conservation education.
    Such outreach clearly has a place in the effort to protect 
global species from illegal trafficking. We would, however, 
caution against seeing public education as a panacea to the 
problem of illegal wildlife trade.
    Government engagement in such efforts dates back to the 
1970s. Nonprofit conservation groups have also invested 
considerable time, energy, and money to educate the public on 
this issue. And as any law enforcement officer working in any 
arena can testify, knowledge of the law does not, in itself, 
constitute compliance with the law.
    In short, strategies for combatting illegal wildlife trade 
must consider the complexity of the problem, and the need to 
address it on multiple fronts.
    The Service is committed to conserving wildlife not only in 
this country, but throughout the world. We appreciate the 
Subcommittee's interest in the consumer awareness and education 
about illegal wildlife trade, and appreciate the opportunity to 
participate in this hearing.
    Madame Chairwoman, this concludes my prepared remarks. I 
would be happy to respond to any questions you may have.
    [The prepared statement of Mr. Perez follows:]

         Statement of Benito A. Perez, Chief, Law Enforcement, 
       U.S. Fish and Wildlife Service, Department of the Interior

    Madam Chairwoman and Members of the Subcommittee, I am Benito 
Perez, Chief of the U.S. Fish and Wildlife Service's (Service) Office 
of Law Enforcement. I am pleased to be here today to discuss our role 
in educating the public about illegal wildlife trade.
    The Service is the lead Federal agency for wildlife law 
enforcement, including the enforcement of U.S. laws and treaties that 
regulate international wildlife trade. Our mandate includes inspecting 
wildlife imports and exports for compliance with U.S. wildlife laws and 
regulations; intercepting illegal shipments; and investigating and 
dismantling wildlife smuggling networks.
    Our 120 wildlife inspectors, stationed at 38 U.S. ports of entry, 
focus exclusively on wildlife trade. Our 186 special agents investigate 
violations of all U.S. wildlife laws, including those that address 
global wildlife trafficking, throughout the country. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ LE Staffing figures as of 7-16-08
---------------------------------------------------------------------------
Overview of Illegal Wildlife Trade
    Black market trade has long been recognized as a threat to wildlife 
worldwide. Despite global efforts to stem it that date back nearly four 
decades, illegal trade continues to thrive. More than 30,000 different 
animal and plant species now receive protection under the Convention on 
International Trade in Endangered Species of Wildlife Fauna and Flora 
(CITES) <SUP>2</SUP> and since the early 1990s <SUP>3</SUP>, listings 
under CITES have increased by more than 75 percent.
---------------------------------------------------------------------------
    \2\ CITES website: http://www.cites.org/eng/disc/species.shtml
    \3\ USFWS Office of Law Enforcement Strategic Plan 2006-2010
---------------------------------------------------------------------------
    Despite years of public outreach to discourage the consumption of 
protected species, demand persists and black markets flourish, even in 
the United States. The impact of such demand has been exacerbated by 
the globalization of the world economy, its population, and cultures. 
The ease of travel, transport, and transaction that characterizes the 
global marketplace has bolstered illegal wildlife trade, facilitating 
its conduct and foiling its detection. Over the past decade, interest 
in exotic locales as tourist destinations has increased, as has our 
ability to buy virtually anything we want from anywhere in the world 
just by visiting a website.
    Examples of wildlife products traded on the black market in the 
United States include beluga caviar, reptiles listed as threatened or 
endangered, elephant ivory carvings, sea turtle boots, illegally 
obtained tribal artifacts from the Amazon and Africa, sea turtle eggs 
and meat, and traditional medicines made from protected species.
Reducing Supply and Demand: Enforcement and Education
    All too often, consumers fail to count the cost to wildlife of the 
exotic items they purchase. Of course, some people who buy illegal 
wildlife and wildlife products simply do not care about the 
consequences to the species. A certain number, however, do not think 
about the nature of the transaction at hand, or they honestly do not 
know that their purchase makes them the last link in a chain of 
criminal activity that includes poachers, middlemen, smugglers, and 
retailers who are all stealing our natural heritage.
    Those in law enforcement must deal with the challenge of people who 
do not care--particularly those whose indifference to conservation is 
apparent from their direct engagement in smuggling and selling 
protected species. Preventing illegal trafficking in global resources 
is a critical part of the Service's mission. As resources are finite, 
we focus on core enforcement work in support of this goal. We 
recognize, however, that public outreach and education can help those 
who act in ignorance see that their business transactions and personal 
purchases contribute to a black market industry that is pushing species 
to the brink of extinction.
    The Office of Law Enforcement Strategic Plan addresses this linkage 
directly. The plan establishes ``Prevent[ing] the unlawful import/
export ``of foreign fish, wildlife and plants'' as a strategic goal and 
acknowledges that meeting this and other goals will depend in part on 
our success in ``Provid[ing] outreach and education to increase 
compliance with wildlife laws.'' Our work to combat global wildlife 
trafficking thus includes efforts to promote compliance in the wildlife 
trade community and efforts to educate consumers about their role in 
stopping illegal wildlife trade.
    The Service regulates virtually all wildlife trade in this country. 
Our wildlife inspectors deal directly on a daily basis with businesses 
and other entities that legally import wildlife and wildlife products. 
As such, we are uniquely positioned to work with wildlife importers and 
exporters to ensure that they comply with U.S. requirements for legal 
trade--requirements that range from declaring shipments to obtaining 
the appropriate permits under CITES. Much of our compliance outreach 
targets this wildlife trade community--a community that includes custom 
brokers; companies dealing directly in wildlife and wildlife products; 
and businesses with other links to wildlife trade (such as 
international hunting guides and outfitters, and internet sale venues).
    Compliance outreach includes presentations and training programs 
for brokers associations and industry groups. We publish public 
bulletins to alert the wildlife trade community about changes in 
regulations or requirements. We have participated as exhibitors or 
speakers at annual meetings, conventions and other forums sponsored by 
such groups as the Marine Aquarium Societies of North America, the 
National Association for the Specialty Food Trade, the Association of 
Chinese Herbalists, the American Watch Association, the American 
Ornithologists Union, and Safari Club International. Other recent 
venues for compliance outreach have included meetings of the Animal 
Transport Association and the Independent Pet and Animal Transportation 
Association International and events such as the Baltimore-Washington 
International Air Cargo Expo in Baltimore and the International Air 
Cargo Convention in Houston.
    Our one-on-one compliance outreach efforts have included 
consultation with eBay to assist them in establishing appropriate 
guidelines for online wildlife transactions and with staff from major 
U.S. department store chains to help them meet requirements for 
importing fashion goods made from wildlife. We have teamed with 
nonprofit groups to develop a conservation curriculum for traditional 
medicine schools in the United States, and have participated in 
industry-sponsored symposiums addressing the use of protected wildlife 
and plants in traditional Chinese medicine. Our staff at the Memphis 
and Louisville hubs of Federal Express and United Parcel Service have 
worked directly with those companies to improve compliance with import/
export requirements.
    Our focus on compliance outreach that targets those engaged in 
wildlife trade on an ongoing basis is critical to our efforts to stem 
wildlife trafficking on the supply side. We have, however, also long 
recognized the importance of educating the public in general to reduce 
demand for illegal wildlife. In fact, the Service has been involved in 
public outreach in this arena for over 30 years. Our archives include 
airline magazine notices from the 1970s urging travelers to ``check the 
import regulations before you go'' and public service announcements 
from the 1980s promoting ``Smart Shopping'' with respect to wildlife 
and wildlife products.
    Such advice remains a staple component of our consumer outreach 
program. The latest edition of our ``Buyer Beware'' brochure, co-
produced with World Wildlife Fund/TRAFFIC North America, spotlights 
caviar, wildlife wools, and exotic plants in addition to such long-
banned items as sea turtle and spotted cat products. A special 
``Caribbean'' edition, produced in both English and Spanish, focuses on 
regional trade issues, warning travelers about purchasing products made 
from sea turtle, coral, queen conch, and other Caribbean species.
    ``Buyer Beware'' information and more detailed guidance is also 
available on the Internet. The Service's home page includes an 
``Import/Export'' portal for those seeking information on this subject. 
The public can access this information as well as information 
specifically for travelers from the Service's law enforcement program's 
website. The latter includes tips for travelers in English and seven 
other languages, as well as fact sheets and links to other useful 
websites.
    The Service has large-scale permanent or temporary exhibits warning 
travelers about contributing to illegal wildlife trade at five major 
airports (Anchorage, Atlanta, Denver, Detroit, and Minneapolis). Many 
border crossings in Texas feature displays on wildlife trafficking 
issues. In recent years, we worked with the staff of the new Atlanta 
Aquarium to develop a wildlife trade exhibit and hands-on learning 
center at that facility and helped the Memphis Zoo assemble a permanent 
display on the threat of illegal trade to wildlife conservation.
    A few years ago, we teamed with a number of nonprofit groups to 
update our ``Suitcase for Survival'' program, which utilizes seized 
wildlife items and a formal curriculum package to teach the public 
about the conservation threats related to illegal wildlife trade. Last 
year alone, our National Wildlife Property Repository, which maintains 
wildlife parts and products forfeited to the Service, provided over 
3,000 items to schools, zoos, and other organizations seeking materials 
for use in conservation education. Our officers occasionally provide 
presentations on illegal wildlife trade to local area school and 
community groups. We also conduct broad-based public outreach by 
staffing exhibits at venues that range from state fairs and sportsmen's 
shows to Earth Day celebrations.
    We routinely work to educate the public through the media by 
teaming with U.S. Attorney's offices to issue news releases 
spotlighting the prosecution results of specific wildlife smuggling 
investigations. We work with print and TV journalists, writers, and TV 
producers to explore the issue of wildlife trade through such vehicles 
as news and feature articles, books, nightly news segments, and 
documentary programming--all of which help educate consumers about 
wildlife trafficking.
    As a member of the State Department-led Coalition Against Wildlife 
Trafficking, we recently supported production of a series of Public 
Service Announcements featuring actor Harrison Ford. Our officers have 
also participated in media events with the State Department's Special 
Envoy Bo Derek, including a media tour of our inspection operation at 
Miami International Airport and a co-appearance on a morning news show 
in New York.
    Such outreach clearly has a place in the effort to protect global 
species from illegal trafficking. We would, however, caution against 
seeing public education as a panacea to the problem of illegal wildlife 
trade. As we have noted, government engagement in such efforts dates 
back to the 1970s. Non-profit conservation groups have also invested 
considerable time, energy and money to educate the public on this 
issue. And, as any law enforcement officer working in any arena can 
testify, knowledge of the law does not in itself constitute compliance 
with the law.
    Efforts to address illegal wildlife trade must focus on strong and 
effective enforcement in ``market'' countries like the United States. 
On a global basis, such efforts must also include improved enforcement 
in ``supply'' nations and the development of viable economic 
alternatives to wildlife trafficking in countries where local 
communities have few options. In short, strategies for combating 
illegal wildlife trade must consider the complexity of the problem and 
the need to address it on multiple fronts.
Conclusion
    The Service is committed to conserving wildlife not only in this 
country, but throughout the world. We appreciate the Subcommittee's 
interest in consumer awareness and education about illegal wildlife 
trade and appreciate the opportunity to participate in this hearing.
    Madam Chairwoman, this concludes my prepared remarks. I would be 
happy to respond to any questions that you may have.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Perez, for 
highlighting the Service's efforts.
    And now, Mr. Allan, it is a pleasure to welcome you before 
the Subcommittee. You are now recognized to testify for five 
minutes.

            STATEMENT OF CRAWFORD ALLAN, DIRECTOR, 
                     TRAFFIC NORTH AMERICA

    Mr. Allan. Madame Chairwoman and Members of the 
Subcommittee, thank you for the opportunity to testify today. 
My name is Crawford Allan, and I am Director of TRAFFIC North 
America. TRAFFIC is a global network, the wildlife trade 
monitoring program of IUCN and World Wildlife Funds.
    As you may know, the United States plays a leading role in 
the global wildlife trade. It is a primary destination for 
wildlife and wildlife products from legal and illegal sources.
    It is estimated that 20 percent of the legal global 
wildlife trade is destined for the United States, with 
indications the demand is increasing. The Fish and Wildlife 
Service reports that the value of U.S. legal wildlife trade has 
grown significantly, from $1.2 billion in 2000 to $2.8 billion 
in 2007. The trade in wildlife in the U.S. feeds a diverse 
range of market sectors, including the pet industry, fashion, 
furniture, and medicine.
    From 2000 to 2005, the United States was the world's 
largest declared importer of corals and live reptiles. Live 
animals make up the largest volume of U.S. wildlife trade, 
mostly for exotic pets, including tropical fish, reptiles, 
songbirds, and amphibians.
    Ninety-six million animals collected from the wild were 
imported into the United States in 2006 and 2007. Many of the 
source countries of wildlife are developing nations, where 
resource security, livelihoods, poverty, and national security 
are often intertwined with the wildlife trade.
    Legal wildlife trade can be profitable, and, if managed 
effectively, revenues can benefit local communities and bolster 
support for wildlife habitat protection in developing 
countries. Sustainable management and trade systems, such as 
implementing CITES or certification schemes, can contribute to 
development goals. However, poverty and the relative high 
return that can be gained from selling wildlife create powerful 
incentives to harvesting trade unsustainably or illegally. At 
the same time, punitive measures for illegal wildlife trade are 
often insufficient.
    U.S. demand is contributing to the problem. While most 
wildlife trade in the United States is legal, a significant 
level of illegal trade also occurs. Between 2000 and 2004, the 
Fish and Wildlife Service intercepted imports of illegal 
wildlife products valued at $35 million. But some estimate the 
illegal wildlife imports are worth over 10 times that amount.
    Wildlife is smuggled from every corner of the globe, 
ranging from elephant ivory from the Congo, to tiger bone 
medicines from China, to sea turtle leather from Mexico. 
Illegal wildlife trade is a big, well-organized criminal 
business that can quickly threaten species with extinction. 
Changing the way business and industry works in the United 
States is vital to ensure that any trade is sustainable through 
appropriate corporate buying practices, and marketing 
sustainable products to consumers.
    One solution is industry and consumer outreach initiatives 
to change availability of supply and buying behaviors. WWF and 
TRAFFIC are working on initiatives with the tourism industry, 
and particularly cruise lines. A large proportion of the 
international seizures of wildlife are comprised of tourist 
souvenirs.
    A TRAFFIC study of sea turtle exploitation found that 
products, such as jewelry made from hawksbill turtle shell, 
continue to be sold throughout the Caribbean, and even though 
the species is critically endangered and protected under law.
    In 2006 50,000 sea turtle products were detected in just 
one week by TRAFFIC in the Dominican Republic, in shops 
frequented by tourists from U.S. cruise ships. Imperiled 
species can be better protected if tourists receive clear 
guidance on what is illegal or damaging to buy at their 
vacation destination.
    The U.S. transport industry can also play a role in helping 
to counter illegal trade, including the smuggling of invasive 
species or wildlife that can transmit disease. Airlines, sea 
freight, and express mail companies can work with law 
enforcement to raise awareness of their customers and 
passengers to the illegal trade in wildlife, and they can alert 
the authorities to problems.
    Despite the United States' comprehensive policies and 
enforcement mechanisms, illegal wildlife trade persists. 
Implementation of regulations is lacking in some instances, 
largely because the agencies responsible are severely under-
resourced, and coordination could be improved.
    To close these gaps, wildlife trade needs to be a political 
priority. And implementing agencies, such as the U.S. Fish and 
Wildlife Service, must be given the necessary resources to 
raise awareness and ensure the success of undercover 
investigations and inspection programs.
    In some instances additional regulation may be required. Of 
particular concern are the 5,000 tigers in captivity in the 
United States, bred to feed U.S. demand for tigers as pets and 
for entertainment. TRAFFIC's latest report shows that in the 
U.S. there are not adequate management systems to monitor 
captive tigers, so we cannot track where these tigers are, who 
owns them, and what happens to them when they die. This lax 
regulation could have global implications. Any illegal drip-
feed of supply from captive populations could perpetuate demand 
for tiger parts, and further threaten wild tigers, as their 
parts are preferred in Asian medicine, if they are from the 
wild.
    TRAFFIC recommends that the United States take steps on the 
legal regulatory and law enforcement fronts to better track 
U.S. tigers, and ensure their parts do not enter the trade. The 
U.S. must not become complicit in endangering wild tigers.
    The countries impacted by U.S. consumer demand also need 
assistance with implementing their wildlife trade laws. For 
many years the United States, with the support of organizations 
such as World Wildlife Fund and TRAFFIC, has been engaged in 
international capacity-building efforts, including the CITES 
support program of the Dominican Republic and Central American 
Free Trade Agreement, and the ASEAN Wildlife Enforcement 
Network.
    Also, the Coalition Against Wildlife Trafficking, thanks to 
U.S. leadership, has been an effective global initiative for 
heightened political awareness of the challenges.
    FFIC encourages further U.S. investment in addressing legal 
wildlife trade at home and abroad. We call upon the United 
States to reaffirm its global leadership role in wildlife 
conservation by taking strong action on these recommendations. 
Many species threatened by illegal and unsustainable wildlife 
trade really cannot afford to wait.
    Madame Chairwoman, thank you for the opportunity to testify 
before the Subcommittee today. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Allan follows:]

      Statement of Crawford Allan, Director, TRAFFIC North America

    Madam Chairwoman, Mr. Ranking Member, and members of the 
Subcommittee, thank you for the opportunity to testify today. My name 
is Crawford Allan, Director of TRAFFIC North America. TRAFFIC is the 
wildlife trade monitoring program of IUCN (the International Union for 
the Conservation of Nature) and the World Wildlife Fund (WWF). TRAFFIC 
works to ensure that trade in wild plants and animals is not a threat 
to the conservation of nature. Over the past 30 years, TRAFFIC has 
gained a reputation as a reliable and impartial organization and a 
leader in the field of conservation as it relates to wildlife trade. We 
are a global network, with 25 offices around the world. Our parent 
organization, WWF, is the largest private conservation organization 
working internationally to protect wildlife and wildlife habitats. WWF 
currently sponsors conservation programs in more than 100 countries 
with the support of 1.2 million members in the United States and more 
than 5 million members worldwide.
    TRAFFIC North America addresses illegal and unsustainable wildlife 
trade issues as they relate to North America by conducting and 
disseminating original research on pertinent trends, providing 
technical and policy guidance, collecting and sharing intelligence 
information with enforcement agencies, promoting consumer and industry 
awareness, and supporting capacity building efforts and trainings to 
address wildlife trade issues at their source, both in North America 
and abroad. My testimony today is offered on behalf of World Wildlife 
Fund-US and TRAFFIC North America. It is also reflects the views of the 
broader WWF and TRAFFIC networks around the globe.
SCOPE AND SCALE OF U.S. DEMAND FOR WILDLIFE
    The United States plays a leading role in the global wildlife 
trade. It is a primary destination for wildlife and wildlife products, 
as well as an exporter. It is estimated that 20% of the legal global 
wildlife trade is destined for the United States, <SUP>1</SUP> with 
indications that demand is increasing. FWS reports that the value of 
U.S. legal wildlife trade has grown significantly in recent years- from 
$1.2 billion in FY2000 to $2.8 billion in FY2007 <SUP>2</SUP>. In the 
ten years between 1992 and 2002, U.S. trade in wildlife and wildlife 
products increased by 75%.
---------------------------------------------------------------------------
    \1\ Randi Alacron, ``The Convention on the International Trade of 
Endangered Species: The Difficulty in Enforcing CITES and the United 
States Solution to Hindering the Trade in Endangered Species,'' N.Y. 
International Law Review, vol. 14, no. 2 (2001), pp. 105-108. 
Referenced from Congressional Research Report available at http://
assets.opencrs.com/rpts/RL34395--20080303.pdf
    \2\ U.S. Department of the Interior, Fish and Wildlife Service 
(FWS), Office of Law Enforcement, Annual Reports, FY2000-FY2006, at 
[http://www.fws.gov/le/AboutLE/annual.htm]; and personal communication 
with FWS officials, February 20, 2008. Figures are in constant FY2008 
U.S. dollars. Referenced from Congressional Research Report available 
at http://assets.opencrs.com/rpts/RL34395--20080303.pdf
---------------------------------------------------------------------------
    The trade in wildlife in the U.S. feeds a diverse range of market 
sectors, including the pet industry, fashion, furniture and medicine. 
From 2000-2005, the United States was the world's largest declared 
importer of corals and live reptiles and the second largest importer of 
cacti, mahogany and orchids. <SUP>3</SUP> About 6.4 million live corals 
were traded globally during this period, with the United States 
accounting for 63% of the imports. <SUP>4</SUP> Other major wildlife 
commodities traded include fish and fish products, birds, traditional 
medicines (including ingredients such as tiger, leopard, rhinoceros, 
bear and musk deer) and exotic foods. The U.S. is one of the largest 
markets for wild-harvested caviar, with domestic prices averaging more 
than $100 per ounce for the most popular types. <SUP>5</SUP> Live 
animal trade makes up the largest volume of U.S. wildlife trade, mostly 
to supply the pet trade, with the most commonly traded species being 
tropical fish, reptiles, song birds and amphibians. <SUP>6</SUP> Nearly 
96 million live animals collected from the wild were imported into the 
United States in both 2006 and 2007, and over 99% of these were 
imported for commercial purposes. <SUP>7</SUP>
---------------------------------------------------------------------------
    \3\ Maylynn Engler and Rob Perry-Jones, Opportunity or Threat: The 
Role of the European Union in the Global Wildlife Trade (Brussels, 
Belgium: TRAFFIC Europe, 2007)
    \4\ Maylynn Engler and Rob Perry-Jones, Opportunity or Threat: The 
Role of the European Union in the Global Wildlife Trade (Brussels, 
Belgium: TRAFFIC Europe, 2007)
    \5\ Caviar prices obtained from TRAFFIC web analyses for beluga 
caviar. July 2008.
    \6\ U.S. Department of the Interior, FWS, Office of Law 
Enforcement, Intelligence Unit, U.S. Wildlife Trade: An Overview for 
1997-2003.
    \7\ TRAFFIC analysis of USFWS LEMIS data. July 2008.
---------------------------------------------------------------------------
    In the United States, there is a valuable trade in native species 
such as Bobcat for fur, sturgeon and paddlefish for caviar, freshwater 
and terrestrial turtles for pets, food and medicine, live fish for 
aquaria and American ginseng for tonics, both for domestic and export 
markets.
    While most wildlife trade in the United States is legal, illegal 
trade also occurs, due to high consumer demand for some species that 
are not easily obtainable through lawful channels. Between 2000 and 
2004, the FWS intercepted approximately $35 million worth of illegal 
wildlife products upon their entry to the United States. <SUP>8</SUP> 
Wildlife is smuggled into the United States from every corner of the 
globe, ranging from the most endangered tortoise from Madagascar to 
tiger bone medicines from China to sea turtle leather from Mexico. 
Recent studies indicate that illegal products such as elephant ivory 
and bushmeat from Africa can be purchased in U.S. markets, and the 
United States may be the single largest market for the illegal live 
reptile trade. Illegal wildlife trade has evolved into a big business 
that can quickly deplete sensitive species and threaten them with 
extinction. Just last month, for example, U.S. Customs agents in Texas 
intercepted a large consignment of illegal elephant ivory said to be 
worth $185,000. The shipment originated in Ethiopia and was concealed 
within a crate declared as musical drums.
---------------------------------------------------------------------------
    \8\ U.S. Department of the Interior, FWS, Office of Law 
Enforcement, Intelligence Unit, U.S. Illegal Wildlife Trade: LEMIS Data 
Analysis and Risk Assessment, November 2005.
---------------------------------------------------------------------------
ILLEGAL VS UNSUSTAINABLE TRADE
    Trade in wildlife is deemed not detrimental to a species if it can 
be proven that the species is being harvested sustainably. Indeed, 
legal wildlife trade can be highly profitable and, if managed 
effectively, revenues can benefit local communities and bolster support 
for wildlife habitat protection. However, overharvesting often results, 
either because of factors and pressures that push those extracting the 
wildlife to take too much, or because there are no effective checks and 
balances to ensure that the harvest does not exceed a sustainable 
level. Pressures to harvest unsustainably include existing large 
international markets that demand a regular supply of consistent 
quality, and growing demand from consumers for wildlife and their 
products as economies expand and new trends emerge. Many of the source 
countries for wildlife are developing nations, where poverty and the 
relative high return that can be gained from selling wildlife create 
powerful incentives to harvest and trade unsustainably or illegally. At 
the same time, punitive measures associated with illegal wildlife trade 
in these countries are often insufficient to act as a deterrent. The 
links between resource security, livelihoods, poverty and security are 
entwined with the wildlife trade in developing nations and sustainable 
systems can help ensure that development is effective and stable. This 
can have benefits beyond wildlife conservation; namely benefits to 
communities.
    It is important to make the distinction between illegal and 
unsustainable trade. Illegal trade is not always unsustainable. 
Similarly, unsustainable trade can often be legal; the fact that trade 
in a particular species is legal does not mean that the consumer or 
trader can be certain that it is not harming wild populations and 
potentially threatening their future viability. Part of the challenge 
is that trade trends can rapidly change in terms of commodity type or 
species involved. Wildlife trade management, trade regulatory 
mechanisms and enforcement measures are not always able to adapt in a 
timely way to address the impacts of a quickly evolving trade. 
Critically, most governments, conservation organizations and harvesters 
of wildlife frequently lack information on the size of a species 
population and its capacity to withstand off-take for trade. Without 
this information and scientific assessments to guide permissible trade 
levels, it is very difficult to ensure that trade is sustainable.
    Major consumer countries like the United States have a 
responsibility to ensure that the wildlife and products they import are 
legal and sustainable. Working with exporting countries, the United 
States needs to prevent illegal wildlife trade while promoting measures 
to ensure that any legal trade is sustainable. By ensuring that the 
supply entering U.S. markets is consistent, sustainable, and clearly 
legal, the U.S. government can alleviate the problems that wholesale, 
retail and consumer sectors face in trying to make such a determination 
when confronted with the array of wildlife and wildlife products that 
are available.
SPOTLIGHT ON TYPES OF WILDLIFE TRADE IN THE UNITED STATES
Tigers
    The estimated 5,000 tigers in captivity within the borders of the 
United States offer a timely example of the result of U.S. consumer 
demand for wildlife. These tigers are being bred to feed U.S. demand 
for tigers as pets, as well as for entertainment purposes. While this 
may not seem to have much relevance to potential impact on tigers in 
the wild, a report launched last month by TRAFFIC shows that there 
could be problems in future. The report, entitled Paper Tigers? The 
Role of the U.S. Captive Tiger Population in the Trade in Tiger Parts, 
sought to answer two central questions:
     i)  Are tigers or tiger parts from the U.S. captive population 
entering the international tiger trade?
    ii)  What implications might trade in this tiger population have on 
conservation of the world's remaining wild tigers?
    In general, the report finds that the U.S. captive tiger population 
does not at present play a significant role in the domestic or 
international trade in tiger bone or other parts. Tiger bone has been 
widely used in traditional Asian medicine and poaching to meet consumer 
demand that has pushed the tiger to the brink of extinction in the 
wild. However, the report does find flaws in the United States' 
management of its large captive tiger population. Specifically, the 
report suggests that the U.S. is currently not in compliance with a 
Convention on the International Trade of Endangered Species (CITES) 
Resolution agreed upon in 2000. CITES Resolution Conference 12.5 
``urges Parties and non-Parties in whose territory tigers and other 
Asian big cat species are bred in captivity to ensure that adequate 
management practices and controls are in place to prevent parts and 
derivatives from entering illegal trade from or through such 
facilities.''
    The United States' failure to properly manage its captive tiger 
population could have global trade implications if it is not adequately 
addressed. The concern is that this large population of tigers could 
act as a drip feed of supply, thus helping to keep alive consumer 
demand for tiger parts. Any demand could further threaten wild tiger 
populations, as wild tiger parts are always preferred over captive 
tigers in traditional medicines, and it is much cheaper to poach a wild 
tiger than to raise one in captivity. Making greater supply available 
to markets for tiger products could lead to the resumption of a demand 
that many governments, traditional medicine practitioners, conservation 
organizations and others have worked for decades to suppress. The U.S. 
must do its part to ensure that its captive tiger population does not 
unintentionally play a role in the endangerment of the world's 
remaining wild tiger populations.
    TRAFFIC recommends that the United States take steps on the legal, 
regulatory, oversight, educational, and law enforcement fronts to 
better track the U.S. captive tiger population and ensure that these 
animals or their parts cannot enter illegal trade. At the federal 
level, legal loopholes exempting certain categories of captive U.S. 
tigers from regulation need to be rescinded, particularly under the 
Captive-Bred Wildlife (CBW) Registration system. Additionally, all 
persons or facilities holding USDA licenses for exhibition or breeding/
dealing in tigers should be required to report annually on the number 
of tigers held, births, mortality, and transfer or sale. Lastly, all 
U.S. states that allow private citizens to keep captive tigers should 
enact laws or regulations that require a comprehensive accounting of 
the number and location of all captive tigers in their jurisdictions, 
and the disposal of these tigers when they die.
 (Paper Tigers? The Role of the U.S. Captive Tiger Population in the 
        Trade in Tiger Parts can be accessed at: http://
        www.worldwildlife.org/who/media/press/2008/
        WWFBinaryitem9751.pdf)
Marine Species and Products from the ``Coral Triangle''
    A substantial volume of wildlife trade to the United States derives 
from the ``Coral Triangle'' region of Southeast Asia, which is 
comprised of marine areas bordering Indonesia, Malaysia, Papua New 
Guinea, Philippines, Solomon Islands, Timor-Leste and Fiji. Much of the 
trade coming from this region is concentrated in mollusk products from 
the Philippines, but there is also abundant trade in marine fish and 
coral products to supply aquariums. In 2007 alone, over 1,655,000 kg of 
corals and 655,000 pieces of coral were imported into the United 
States, with most of this trade originating from Indonesia. 
<SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ TRAFFIC analysis of USFWS LEMIS data. July 2008.
---------------------------------------------------------------------------
    The negative impacts of trade on the coral species in the region 
have been well-documented. Coral reefs face a number of conservation 
concerns. Because of these pre-existing vulnerabilities, trade in coral 
products is an important focus for conservation resources. Many mollusk 
and fish species are part of the reef ecosystem and are negatively 
affected by illegal or unsustainable trade in corals, as well as by 
unsustainable fishing practices. Activities that deplete the integrity 
of coral reefs endanger these species as well and threaten the 
commodities that supply the fish and mollusk trades.
    Increasing the awareness of certification measures for aquarium 
resources and emphasizing the importance of such certification is one 
way to drive market pressure towards sustainable sourcing practices. 
Because so many small companies are engaged in the trade, it is a 
difficult industry to pressure regarding responsible corporate 
practices. However, increasing supply chain transparency and better 
knowledge about fishing practices may go a long way toward changing 
market dynamics.
    The ecological systems of the Coral Triangle produce biological 
resources that directly sustain the lives of more than 120 million 
people living within this area, and benefit millions more worldwide. 
USAID is currently exploring the need in the region to sustain the 
natural productivity of the Coral Triangle for current and future 
generations, including potential support for fisheries and trade policy 
reforms, improved international standards for the Live Reef Food 
Fishery Trade, and encouraging consumer and retailer demand for 
sustainably sourced seafood from the Coral Triangle. WWF and TRAFFIC 
support these efforts.
CONSUMER AND INDUSTRY INVOLVEMENT
    There are two diametrically opposed issues at play in addressing 
demand for illegal and unsustainable wildlife trade, each with a 
different solution. The first issue is addressing consumers and 
industries that unwittingly make poor purchasing decisions. Steps need 
to be taken to increase their awareness and improve their ability to 
make better choices. The second issue is dealing with those consumers 
and companies that know that their purchases or trading are illegal or 
unsustainable. In this case, steps need to be taken to effectively 
detect and deter these practices.
Corporate Engagement with Wildlife Conservation
    One major solution is for key business sectors in the United States 
to encourage sustainable trade through their buying practices and the 
marketing of products. Businesses are primarily interested in reducing 
costs and increasing revenue, which add to the long-term value of the 
trade. The wildlife conservation community, informed consumers and some 
parts of the public sector are interested in the long-term conservation 
of biodiversity. It is vital that these separate interests can engage 
and inform each other, helping to improve the way in which the market 
in the U.S. views and supports sustainability of trade. Businesses need 
to understand that sustainable use is critical to their success over 
time and can be a source of profit. Adopting sustainable practices is 
certainly in the best interest of businesses that participate in the 
wildlife trade, and sustainability should be an important focus for 
them. Partnerships with civil society may be the most effective way to 
achieve these goals.
    A critical example of this approach is Wal-Mart's decision to move 
towards supplying its supermarkets with fish from sustainable sources 
that are certified under the Marine Stewardship Council (MSC). As the 
world's largest retailer, Wal-Mart buys and sells thousands of seafood 
and aquaculture products every year. The company has committed to 
purchasing 100 percent of its wild-caught seafood sold in the United 
States from MSC-certified sources by 2011, leveraging its size and 
scale in order to effect change within the entire industry. WWF has 
partnered with Wal-Mart, MSC, and the Sustainable Fisheries Partnership 
in order to make this goal a reality. WWF is helping Wal-Mart to use 
its purchasing power to secure seafood from environmentally sustainable 
sources by actively engaging with fisheries and helping improve them to 
MSC certification standards.
Tourism and Travel
    The international trade in souvenirs, curios and duty free goods 
made from wildlife and aimed at tourists and travel markets presents 
numerous challenges for the consumer. A large proportion of 
international wildlife seizures are comprised of tourist souvenirs. 
Many wildlife curios are available as souvenirs, and travelers often 
have no way of knowing the harm done to wildlife by the high turnover 
sales of such products in the world's major tourist and travel centers.
    Cruise ship tourism is one specific area of concern. These 
operations have very relaxed checks on travelers, and very little 
information is available to let travelers know whether the wildlife 
souvenirs they purchase are made from protected species (as is often 
the case), whose export from their country of origin or import into the 
United States is prohibited. This is particularly common in many ports 
of call around the Caribbean, which see millions of cruise ship 
tourists annually. A TRAFFIC North America study of sea turtle 
exploitation in the Northern Caribbean found that hawksbill turtle 
shell products continue to be sold in port shops and tourist markets 
throughout the Caribbean, despite the fact that this species is 
critically endangered and protected under domestic and international 
laws. <SUP>10</SUP> A more recent TRAFFIC North America market survey 
of shops in the Dominican Republic in 2006 found 50,000 hawksbill 
turtle shell items openly available in the majority of stores 
frequented by cruise ship passengers, regardless of their illegality. 
<SUP>11</SUP>
---------------------------------------------------------------------------
    \10\ Fleming, E.H. 2001. Swimming Against the Tide: Recent surveys 
of exploitation, trade, and management of marine turtles in the 
Northern Caribbean. TRAFFIC North America. Washington, D.C.
    \11\ Reuter, A. and Allan, C. (2006). Tourists, Turtles and 
Trinkets: a look at the trade in marine turtle products in the 
Dominican Republic and Colombia. TRAFFIC North America, Washington, 
D.C.
---------------------------------------------------------------------------
    Other items may be legally traded but are harvested for trade in 
volumes that are not sustainable, further threatening already imperiled 
species. Species supplying this unsustainable trade from the wild 
include birds of prey, corals, queen conch, crocodiles and caimans. 
Incredibly, live animals such as parrots, sea turtles and rare endemic 
lizards are sometimes purchased by tourists and carried with them in 
their hand luggage. Sometimes the wildlife sold in tourist centers may 
not even originate from the country or region of purchase, even though 
marketed as a local souvenir. In the Caribbean, many souvenirs are 
imported from Asia, including those made from corals and sea turtle 
shells.
    It is important for tourists to understand that even though a 
product is openly offered for sale, the product may not be legal to 
export from that country. TRAFFIC recommends that tourists, and 
particularly cruise ship passengers, be provided with clear guidelines 
regarding what is illegal to purchase and/or transport out of any given 
port country. Outreach of this sort will help protected species while 
helping tourists avoid any unfortunate incidents involving their 
purchased products being seized by Customs. TRAFFIC is preparing 
outreach materials that will help inform cruise ship tourists about 
which wildlife souvenirs to avoid.
The Role of Transport
    Trade in wildlife invariably involves transport of wildlife 
merchandise as it moves from the supplier to the consumer, often across 
international borders. A commodity may be transported by a number of 
different means on its journey from source to consumer. Because of 
this, the transport industry can play a constructive role in helping to 
counter illegal trade, including trade that can transmit disease or 
invasive species. The United States transport industry can work hand in 
hand with consumers and law enforcement to raise the awareness of their 
cargo customers and passengers to illegal and unsustainable trade in 
wildlife, and to alert the authorities to problems.
    The demand for black market wildlife tends to generate a trade 
gradient of wildlife from biodiversity-rich countries in Asia, Africa 
and South America to consumers and markets in North America, Europe, 
China and Japan. The most rare and valuable wildlife tends to be 
smuggled by air, which is the most rapid and secure transport method. 
Sea freight tends to be used for smuggling non-perishable, bulky 
products in large consignments, such as elephant ivory. Live wildlife 
invariably is smuggled by air or by road, transported in crates, 
luggage, or on the person of passengers. Express mail courier services 
are frequently utilized as well. The incentives for smuggling wildlife 
are high but the penalties for offences are low, and smuggling methods 
can be complex and creative. Not all smuggling involves hiding 
contraband within packages and crates; much of the wildlife smuggled 
involves fraudulent documentation. Often, a smuggler will merely claim 
that a rare, protected species is something more common and, of course, 
legal.
    The higher value illegal wildlife, including the parts and 
derivatives of rarer species such as rhinos and tigers, are transported 
using international airlines. This is also true of live animals and 
plants, such as parrots, reptiles and orchids. Airline staff, because 
they are present from the beginning to the end of any journey, may have 
closer and more frequent contact with cargo, baggage and passengers 
than customs officers. Airlines therefore have more opportunity to 
notice suspicious shipments or wildlife in passenger's luggage. 
Unfortunately, cabin crew, cargo and baggage handlers and 
administrative staff generally have little or no knowledge of the legal 
requirements for transport of wildlife and products. Increasing the 
basic awareness of U.S. airline staff, passengers and cargo customers 
could help reduce the incidence of smuggling of illegal wildlife, as 
well as the spread of diseases and invasive species into the United 
States.
    The potential for serious human health and agricultural impacts due 
to the illegal trade in wildlife must not be underestimated. Imported 
live animals and their parts and products may present disease risks to 
humans and domestic wildlife. Parrots, for example, can carry 
respiratory diseases that can be fatal; Gambian pouch rats introduced 
monkey pox into the United States; meat from wildlife for human 
consumption, smuggled from West Africa in passenger luggage, may 
transmit serious diseases; and animal skins can carry anthrax spores. 
Agriculture can be catastrophically affected by diseases transmitted to 
domestic livestock, and invasive pests can wreak havoc on crops, as 
well as U.S. ecosystems. Because U.S. consumers are at the end of the 
trade chain, they may end up being responsible for driving a trade with 
adverse health and agricultural impacts, almost certainly through a 
lack of awareness.
SUPPORTING HUMAN LIVELIHOODS AND COMMUNITY BENEFITS
    Many rural households, especially in developing countries, depend 
on wildlife for their livelihood. Some communities depend on wildlife 
for subsistence living. Others derive part of their income through 
benefits from wildlife trade. As species populations are depleted by 
illegal or unsustainable trade resulting from the growing demand for 
wildlife globally, the livelihoods of poor communities are also 
threatened as they struggle to find wildlife to trade or consume. On 
the other hand, well-managed wildlife trade has the potential to 
deliver significant development benefits for the world's poor and to 
decrease the incentives for illegal trade. The challenge is to find the 
right balance and to ensure equitable revenue flows along the trade 
chain so that poor communities benefit.
    TRAFFIC and WWF issued a report highlighting this dynamic entitled, 
Trading Nature: The Contribution of Wildlife Trade Management to 
Sustainable Livelihoods and the Millennium Development Goals. The 
report details how wildlife trade offers opportunities to the poor and 
provides benefits to local communities. It also shows how these 
benefits are threatened when illegal or unsustainable trade is allowed 
to flourish, providing case studies on the wild meat trade in East and 
Southern Africa, the trade in peccari and caiman skins and vicuna wool 
in Latin America, and the trade in Asian coastal fisheries products. To 
cite just one example, seahorse fishers and traders in the Philippines 
reported that their catch contributes around 30--40% of their annual 
income--sometimes reaching as high 80%. Many of the products they 
harvest are regularly imported into the United States and sold to U.S. 
consumers.
ENFORCEMENT
    The United States has comprehensive policies and enforcement 
mechanisms for regulating wildlife trade and for prohibiting 
international and interstate trade of endangered, threatened, and 
protected species. Nonetheless, illegal wildlife trade continues to 
take place. Implementation of existing regulations is still lacking, in 
large part because many of the agencies responsible are severely under-
resourced. To close these gaps, wildlife trade needs to be made a 
priority on the political agenda, which it has not been up until now. 
Given the proper resources, undercover investigations and inspection 
programs can be highly successful. Operation Shell Game was an 18-
month-long joint Canadian and U.S. investigation into the unlawful 
import and export of queen conch Strombus gigas. <SUP>12</SUP> 
Conducted in 2006, it was one of the largest U.S.-Canadian endangered 
species smuggling cases in years, with over 111,000 pounds (50,349 
kilograms) of threatened queen conch shipped to the United States and 
Canada from Colombia and Haiti without the proper permits. The case 
involved defendants in both the United States and Canada. This is just 
one example of the law enforcement challenges faced by U.S. agencies 
responsible for regulating wildlife traffic, and it highlights the 
enormity of this illegal trade.
---------------------------------------------------------------------------
    \12\ Queen conch is a commercially valuable seafood product and is 
a protected species under the U.S. Endangered Species Act. Since 1992, 
queen conch has been listed on Appendix II of CITES so to engage in 
trade in queen conch, all imports or exports must be accompanied by a 
CITES export certificate from the country of origin, or a re-export 
permit from a country of re-export
---------------------------------------------------------------------------
    Countries impacted by U.S. consumer demand also need assistance 
with implementing and enforcing their own wildlife trade laws. To this 
end, the United States, with the support of conservation organizations 
such as TRAFFIC, has been engaged for many years in capacity building 
efforts around the globe. The Central America-Dominican Republic 
(CAFTA-DR) Free Trade Agreement CITES Support Program is a good example 
of a medium-term capacity building program established by the United 
States to support CAFTA-DR member countries. These countries encompass 
a wide variety of ecosystems and a spectacular diversity of wildlife. 
At the same time, they face chronic threats to biodiversity, which 
often derive from unsustainable natural resource management practices. 
As demand for exotic leather, corals, parrots, fisheries products and 
an array of other wildlife products continues to grow, it is important 
for government agencies and industry to meet the implementation 
requirements of CITES and support enforcement.
    TRAFFIC has supported this program since 2006, in partnership with 
the U.S. Fish and Wildlife Service (USFWS) and the International 
Technical Assistance Program of the Department of the Interior. This 
capacity building effort enables governments to develop, implement and 
enforce laws and regulations in a coordinated manner, support 
sustainable use practices, and deter illegal activities that are 
currently commonplace. It also identifies where trade in wildlife to 
the United States could pose a problem and takes steps to mitigate it. 
This work is funded by the U.S. Department of State, and TRAFFIC would 
encourage further U.S. investment in addressing illegal wildlife trade 
abroad, as well as the U.S. consumer demand that too often drives it.
General Education
    The Suitcase for Survival program is a partnership of the U.S. Fish 
and Wildlife Service (FWS), American Zoo and Aquarium Association 
(AZA), World Wildlife Fund (WWF), National Oceanic and Atmospheric 
Administration (NOAA) - Fisheries Services' Office for Law Enforcement 
and with additional assistance from TRAFFIC North America. It is 
designed to address the need for a national education program focused 
on wildlife trade and biodiversity. Since 1991, the program has raised 
awareness about the devastation caused by illegal wildlife trade 
worldwide. It has also helped consumers understand the importance of 
biodiversity and how their buying habits can contribute to biodiversity 
conservation.
    The program includes several components that build on the strengths 
of the partners. The FWS and NOAA provide wildlife trade artifacts that 
have been confiscated at ports of entry. These artifacts are 
disseminated to a wide array of environmental educators and their 
respective institutions throughout the nation, and host institutions 
can assemble the artifacts into used suitcases. These suitcases can 
then be used to conduct wildlife trade educational programs with 
educators and students as well as the general public. In addition to 
artifacts, the institutions can also use World Wildlife Fund's wildlife 
trade education module, Wildlife for Sale: An Educator's Guide to 
Exploring Wildlife Trade.
    More funding for programs like Suitcase and the Buyer Beware 
program, developed with TRAFFIC and FWS, would go a long way in 
highlighting the conservation issues of wildlife trade and help to 
alleviate U.S. consumer impact.
RECOMMENDATIONS
    The United States is increasingly taking positive steps to reduce 
its ecological footprint and improve the sustainability of its business 
practices. As this awareness and positive action grows, the United 
States must not overlook the need for sustainable sourcing of wildlife 
and legal controls on wildlife imports and exports. The following are 
priority considerations that frame the way in which the U.S. can bring 
about change:
    <bullet>  Educating consumers and raising awareness about the 
impacts of their choices, and providing alternate sustainable choices, 
is vital. The impact that consumer behavior in the United States has on 
wildlife trade globally is large and direct. By working to influence 
that behavior in positive directions and to bring about constructive 
change with respect to enforcement efforts and business practices, the 
U.S. government can make a real difference for international 
biodiversity conservation.
    <bullet>  High-level political will and adequate resources to 
implement the necessary controls will be required to ensure that the 
U.S. wildlife trade is legal.
    <bullet>  More partnerships with the corporate sector and 
additional sustainable sourcing initiatives backed up by consumer 
marketing campaigns will be needed to make sure that trade is both 
legal and sustainable.
    Notwithstanding isolated challenges such as on tigers discussed 
above, overall, the United States has one of the best regulatory 
systems in the world for addressing wildlife trade. From the excellent 
Wildlife Inspectors, Special Agents, Special Intelligence Unit, and 
Forensics Lab of the U.S. Fish and Wildlife Service, to the prosecutors 
in the Environmental Crimes Section of the U.S. Department of Justice, 
the U.S. has a wealth of knowledge and expertise to share with 
countries looking to improve their own regulatory systems. Where such 
international efforts have received the needed support from the U.S., 
as in Southeast Asia under ASEAN-WEN (Association of Southeast Asian 
Nations-Wildlife Enforcement Network), they have met with great 
success. We therefore urge Congress to:
    <bullet>  Ensure that these U.S. enforcement agencies and units be 
better resourced to address the ever-growing wildlife trade issues 
threatening the United States, and they should be provided with 
additional resources in order to assist in countries where U.S. 
consumer demand is taking a serious toll on native wildlife
    Raising awareness of the legal implications and penalties for 
industry or individuals engaged in illegal wildlife trade is critical 
as well. Through the combination of approaches mentioned below, led by 
the U.S. government, there is the potential to elevate the level of 
attention to the challenges of wildlife trade and drive home 
initiatives to reduce illegal trade while increasing the benefits to 
developing communities that supply wildlife on a sustainable basis. 
Therefore, additionally:
    <bullet>  Congress should allocate greater resources to awareness 
of the legal and conservation issues surrounding wildlife trade. 
Educating consumers and industry so that they can make informed choices 
that are both legal and sustainable--with resulting conservation 
benefits--will be essential.
    These efforts to some degree take place through the multinational 
species programs authorized by Congress--often with your leadership, 
Madam Chair, and the leadership of this Subcommittee ``for elephants, 
rhinos, tigers, great apes, sea turtles and neotropical migratory 
birds. All of these species are affected by illegal trade, and 
conservation efforts funded under appropriations through these programs 
have helped to address this problem. However, the bills apply to a 
narrow range of species, and provide only a drop in the bucket compared 
to what is necessary. While the Great Cats and Rare Canids Act will be 
an important addition to the multinational species programs, there are 
still a great many species that do not receive any benefit through 
legislation implemented by FWS. WWF has recently advocated before this 
Subcommittee <SUP>13</SUP> the following recommendation and we stress 
this need again here:
---------------------------------------------------------------------------
    \13\ 13 Testimony of Thomas Dillon, Senior Vice-President for Field 
Programs, World Wildlife Fund, Legislative Hearing on H.R. 4455 before 
the Subcommittee on Fisheries, Wildlife and Oceans. Committee on 
Natural Resources, U.S. House of Representatives, 24 June 2008.
---------------------------------------------------------------------------
    <bullet>  A broader approach to global species conservation is 
needed, covering a much broader number of species, to address a host of 
threats facing endangered species generally, including wildlife 
trafficking. Such an omnibus species conservation bill would go a long 
way to addressing the problems discussed in my testimony today.
    I am appending to this testimony a statement of principles on what 
such a paradigm would look like, that WWF produced in conjunction with 
Wildlife Conservation Society.
    Up to this point, the issue of illegal wildlife trade has tended 
only to capture the attention of those tasked with addressing it. It 
must be raised to a higher level of awareness and prioritization. One 
mechanism currently in place to help generate political will for 
addressing the problem is CAWT (Coalition Against Wildlife 
Trafficking). CAWT is a mechanism to highlight wildlife trade at the 
highest levels internationally, but it could also act as a mechanism 
for coordination within the United States amongst all the agencies 
tasked at any level with addressing this issue, including USFWS, NOAA, 
CBP and others. WWF and TRAFFIC urges:
    <bullet>  The United States to garner greater political will and 
elevate the issue of illegal wildlife trade as a priority at 
multilateral meetings and in diplomatic exchanges to bring about 
significant change globally. CAWT is vital to support this change and 
we hope that the United States continue and expand this effort and 
consider ways for more effective coordination between United Stages 
agencies regarding wildlife trade regulation and enforcement.
    TRAFFIC has over 30 years of in-depth insight into the wildlife 
trade, as well as experience in monitoring emerging trends, conducting 
investigations and trainings, facilitating multiregional enforcement 
networks, and analyzing data and legislation in every region around the 
world. Specifically, TRAFFIC holds a wealth of intelligence on wildlife 
smuggling and criminal networks in many regions, which we would be 
happy to share with Congress and relevant agencies in order to 
highlight the problems on the ground and to begin to develop effective 
and collaborative solutions. WWF has worked with local communities, 
industry and governments since 1961 and has pioneered education and 
awareness raising work throughout these sectors. WWF has also built 
significant partnerships with business and industry in the United 
States, and these relationships can provide role model approaches for 
future engagements with businesses engaged in the legal sale of 
wildlife and wildlife products. TRAFFIC and WWF offer their support and 
assistance to these efforts, wherever feasible.
CONCLUSION
    The United States is one of the largest consumers of wildlife in 
the world. This demand results in many problems, and these problems 
need to be resolved if we are to ensure biodiversity conservation, 
continued livelihoods for communities in the developing world, and a 
legal and sustainable wildlife trade in the U.S. We call upon the 
United States to reconfirm its global leadership role in wildlife 
conservation by taking strong and immediate action to bring about 
positive change. Many species threatened by illegal and unsustainable 
wildlife trade cannot afford to wait.
    Madam Chairwoman, thank you for the opportunity to testify before 
the Subcommittee today, and thank you for all you have done to protect 
some of the world's most endangered and iconic species from extinction. 
TRAFFIC will be happy to answer any questions or support the work of 
the Subcommittee, as necessary.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Allan, for your insights on 
illegal wildlife trade, and for showing us some of these 
confiscated products.
    Mr. Bigue, I am looking forward to hearing from you next, 
so you can begin.

      STATEMENT OF MARCEL BIGUE, DEPUTY DIRECTOR, WILDAID

    Mr. Bigue. Madame Chairwoman, honorable Members, thank you 
for the opportunity to address you today.
    I speak to you today as the Deputy Director of WildAid, a 
conservation organization dedicated to ending illegal trade in 
wildlife; and for the Animal Welfare Institute. I also deliver 
the profound apologies of Ms. Bo Derek, a WildAid board member 
who was hoping to address you today, but has been seriously 
ill. I am happy to report Bo is on the road to recovery.
    In the previous hearing you heard from Assistant Secretary 
of State Claudia McMurray and other witnesses about the 
devastating impact of the illegal wildlife trade, and how the 
United States currently addresses the problem.
    Initiatives include the Coalition Against Wildlife 
Trafficking, the ASEAN WEN initiatives, and the State 
Department naming of Bo Derek as a special envoy regarding 
wildlife trafficking. I strongly urge you to push for the 
continuity of these important programs now and throughout the 
next Administration.
    In addition, I would like to bring to your attention an 
additional way that Congress might lead funding consumer 
awareness programs in the U.S. Congressional laws in the field 
are among the best in the world, and are largely up to the task 
of enforcing anti-poaching measures. Therefore, the primary 
need going forward is for adequate financing, both of their 
enforcement, and to raise awareness with the general public to 
reduce demand for these products.
    The illegal wildlife trade thrives on three factors: need, 
greed, and ignorance. The financial need of the poor and 
developing nations creates the incentives to poach. This can be 
addressed by not only increasing field enforcement, but by 
developing alternative sources of income. The U.S. has been a 
leader in these efforts, through USAID and by Congressional 
support of the Rhino and Tiger Conservation Act, and other 
financing mechanisms through the U.S. Fish and Wildlife 
Service.
    The greed of professional poachers, smugglers, and illegal 
traders can only be addressed through law enforcement, and by 
reducing demand. As the U.S. Fish and Wildlife Service did talk 
about their effective enforcement measures in their testimony, 
I only want to stress the importance of their work in stemming 
the illegal wildlife trade, and urge this committee to keep 
them adequately funded.
    But enforcement is only part of the solution. The efforts 
against drug trafficking have shown that even billions spent on 
enforcement alone will have little effect if demand remains 
strong. As long as strong demand keeps prices high, illegal 
activity will continue, no matter how many poachers are caught, 
fined, or imprisoned. I understand that a number of Members of 
this Committee raised the demand issue at your previous 
hearing.
    Last, the ignorance of consumers perpetuates this trade. 
This ignorance lies in the impact their consumption has on 
wildlife, the laws and the species that they protect, and in 
the potential health risks linked to consumption. The illegal 
wildlife trade will continue if consumers are unaware of their 
impact.
    When the State Department convened an inter-agency meeting 
with NGO's to address this, three groups each independently 
identified the greatest priority as increasing public 
awareness. Yet to date, the vast majority of public and private 
resources have focused on study, monitoring, and law 
enforcement.
    While this is important, it is only the first step in fully 
eradicating the illegal wildlife trade and saving those species 
threatened by it. If we ignore demand, we will fail.
    As the second-largest consumer of illegal wildlife 
products, the U.S. has a special duty to address this demand, 
which comes not just from our economic power, but also from our 
cultural diversity. While all American tourists might buy 
products like coral and ivory, certain products are very 
culture-specific, such as those used in traditional Chinese 
medicine or exotic products valued as an affluent delicacy. 
Therefore, demand-reduction efforts must address these 
communities specifically, as well as the general public.
    WildAid has been a leader in this field internationally, 
not only in engaging a wide range of cultures by recruiting 
their highest-profile celebrities as spokespeople, but also by 
reaching up to one billion people a week worldwide by 
leveraging millions of dollars of donated production and media 
space. To date, our main focus and efforts have been in Asia. 
And I would like to show the Committee the kind of materials 
and programs that could be possible in the United States if 
financial support was available.
    The video you are seeing features some of the world's top 
celebrities and Olympic gold medalists from the U.S., China, 
and other countries, all delivering the message when the buying 
stops, the killing can, too. Top advertising agencies have 
donated their time. World-class productions have been done at 
less than cost by U.S. production companies.
    Because of the quality, originality, and star power, the 
media space and airtime has been donated. In China alone, the 
official government media has donated over $5 million of 
airtime. Here in the U.S., CBS, Fox, CNN, National Geographic, 
and other networks have carried some of these messages, as 
well. Due to limited funding, WildAid's primary effort has been 
in China, but the model could be easily replicated here.
    One obvious focus point could be our primary international 
airports. In China, through a partnership with Air Media, 
WildAid's messages reach 93 percent of domestic air travelers 
through videos on planes and in airports. Some of our airports 
do carry modest displays of wildlife products, but this could 
be greatly enhanced with celebrity video messaging, more 
engaging presentations, and media launches.
    In short, the opportunity exists for a high-profile, highly 
leveraged, star-studded multi-cultural awareness program. This 
public/private sector collaboration could reach tens of 
millions of Americans for a few million dollars, but there are 
currently no financial mechanisms for Congressional support of 
such a program in the U.S.
    By creating a mechanism for Congress to fund such outreach 
efforts, I believe this Committee could take a lead in reducing 
our nation's role in this illegal trade.
    Thank you, Madame Chairwoman and honorable Members.
    [The prepared statement of Mr. Bigue follows:]

          Statement of Marcel Bigue, Deputy Director, WildAid

    Madame Chairwoman, Honorable Members thank you for the opportunity 
to address you today.
    I speak to you today as the Deputy Director of WildAid, a 
conservation organization dedicated to ending the illegal trade in 
wildlife; and for the Animal Welfare Institute. I also deliver the 
profound apologies of Ms. Bo Derek, a WildAid board member who was 
hoping to address you today, but has been seriously ill. I am happy to 
report Bo is well on the way to recovery.
    In the previous hearing you heard from Assistant Secretary of State 
Claudia McMurray and other witnesses about the devastating impact of 
the illegal wildlife trade and how the United States currently 
addresses the problem. Initiatives include: the Coalition Against 
Wildlife Trafficking, the ASEN WEN initiatives, and the State 
Department naming of Bo Derek as the Special Envoy regarding wildlife 
trafficking. I strongly urge you to push for the continuity of these 
important programs now and throughout the next Administration. In 
addition, I would like to bring to your attention an additional way 
that Congress might lead: funding consumer awareness programs in the 
U.S..
    Congressional laws in this field are among the best in the world 
and are largely up to the task of enforcing anti-poaching measures--
therefore the primary need going forward is for adequate financing both 
of their enforcement and to raise awareness with the general public to 
reduce demand for these products.
    The illegal wildlife trade thrives on three factors: need, greed 
and ignorance.
    The financial need of the poor in developing nations creates the 
incentive to poach. This can be addressed by not only increasing field 
enforcement, but by developing alternative sources of income. The U.S. 
has been a leader in these efforts through U.S. AID and by 
Congressional support of the Rhino and Tiger Conservation Act and other 
financing mechanisms through the Fish and Wildlife Service.
    The greed of professional poachers, smugglers and illegal traders 
can only be addressed through law enforcement and reducing demand. As 
the U.S. Fish and Wildlife Service will undoubtedly talk about their 
effective enforcement measures in their testimony, I only want to 
stress the importance of their work in stemming the illegal wildlife 
trade and urge this committee to keep them adequately funded. But 
enforcement is only part of the solution.
    The efforts against drug trafficking have shown that even billions 
spent on enforcement alone will have little effect if demand remains 
strong. As long as strong demand keeps prices high, illegal activity 
will continue--no matter how many poachers are caught, fined, or 
imprisoned. I understand that a number of members of this Committee 
raised the demand issue at your previous hearing.
    Lastly, the ignorance of consumers perpetuates this trade. This 
ignorance lies in the impact their consumption has on wildlife, the 
laws and the species that they protect, and in the potential health 
risks linked to consumption. The illegal wildlife trade will continue 
if consumers are unaware of their impact.
    When the State Department convened an interagency meeting with NGOs 
to address this, three groups each independently identified the 
greatest priority as ``increasing public awareness.'' Yet, to date, the 
vast majority of public and private resources have focused on study, 
monitoring, and supporting law enforcement. While this is important, it 
is only the first step in fully eradicating the illegal wildlife trade 
and saving those species threatened by it. If we ignore demand we will 
fail.
    As the second largest consumer of illegal wildlife products, the 
U.S. has a special duty to address this demand, which comes not just 
from our economic power, but also from our cultural diversity. While 
all American tourists might buy products like coral and ivory, certain 
products are very culture specific, such as those used in traditional 
Chinese medicine or exotic products valued as an affluent delicacy. 
Therefore, demand reduction efforts must address these communities 
specifically as well as the general public.
VIDEO STARTS FROM THE CASCADES OF STARS
    WildAid has been a leader in this field internationally, not only 
in engaging a wide range of cultures by recruiting their highest 
profile celebrities as spokespeople, but also by reaching up to 1 
billion people a week world wide by leveraging millions of dollars of 
donated production and media space.
    To date, our main focus and efforts have been in Asia and I would 
like to show the Committee the kind of materials and programs that 
could be possible in the United States if financial support was 
available.
    The video you are seeing features some of the world's top 
celebrities and Olympic gold medalists from the U.S., China and other 
countries, all delivering the message ``when the buying stops, the 
killing can too''.
    Top advertising agencies have donated their time.
    World class productions have been done at less than cost by U.S. 
production companies.
    Because of the quality, originality and star power, the media space 
and airtime has been donated. In China alone, the official government 
media has donated over five million dollars of airtime.
    Here in the U.S., CBS, Fox, CNN, National Geographic and other 
networks have carried some of these messages as well.
    Due to limited funding, WildAid's primary effort has been in China, 
but the model could be easily replicated here.
    One obvious focus point could be our primary international 
airports. In China, through a partnership with Air Media, WildAid 
messages reach 93% of domestic air travelers through videos on planes 
and in airports.
    Some of our airports do carry modest displays of wildlife products, 
but this could be greatly enhanced with celebrity video messaging, more 
engaging presentations and media launches.
    In short, the opportunity exists for a high profile, highly 
leveraged, star-studded, multi-cultural awareness program.
    This public private sector collaboration could reach tens of 
millions of Americans for a few million dollars, but there are 
currently no financial mechanisms for Congressional support of such a 
program in the U.S..
    By creating a mechanism for Congress to fund such outreach efforts, 
I believe this Committee could take a lead in reducing our nation's 
role in this illegal trade.
    Thank you Madame Chairwoman and Honorable Members
                                 ______
                                 
    Ms. Bordallo. I thank you, Mr. Bigue, for your innovative 
work in addressing the demand for illegal wildlife products.
    And now Mr. Kowalski, would you please begin?

 STATEMENT OF MICHAEL KOWALSKI, CHAIRMAN AND CEO, TIFFANY & CO.

    Mr. Kowalski. Madame Chairwoman, Members of the Committee, 
it is a privilege to be here.
    Since our company's founding in 1837, Tiffany & Company has 
grown and prospered based upon one simple idea: the belief that 
good design is good business. Over the past 10 years we have 
come to recognize that there is a vitally important 21st 
century corollary, and that an unequivocal commitment to 
protecting the natural world is also undeniably good business.
    There is today enormous concern among consumers about the 
impact their decisions have upon the environment. And just as 
good design has been at the heart of the consumer appeal of our 
jewelry, so, too, does a commitment to sustainability today 
reflect the evolving desires of those very same customers.
    I am here today speaking, of course, as a representative of 
Tiffany & Company, but more fundamentally, I believe I am here 
speaking for our customers--customers who care deeply about the 
preservation of the natural world; customers who instinctively 
recognize that nature has been our greatest designer and 
understand the imperative to protect the source of that 
inspiration; customers who trust us to make certain that in 
creating Tiffany jewelry, we do everything possible to leave 
behind a world every bit as beautiful and complete as the one 
we inherited.
    So I testify today not as an executive who cares about the 
environment, but rather as one who is simply responding to our 
customers' expectations. We have no doubt the consumers want 
jewelry that is sourced responsibly; jewelry that contains 
precious metals that are mined responsibly from mines that do 
not threaten wilderness, wildlife, or recreational values. 
Diamonds that do not fuel armed conflict, rubies that do not 
support governments that abuse human rights. And jewelry that 
is inspired by the ocean's beauty, not jewelry that destroys 
the very beauty it seeks to celebrate.
    For the past eight years the Tiffany Foundation has 
supported research focused on coral reef systems. And since 
2003, Tiffany & Company has helped protect coral in the most 
simple and direct way we knew how: by refusing to sell it in 
our stores.
    Initially we acted more on faith rather than fact, choosing 
to err on the side of caution rather than commerce, when the 
survival of something as precious as coral was at stake. And 
today, while we remain committed, most retail jewelers, and 
certainly most consumers, are still sadly unaware of the global 
destruction of coral and their complicity in that destruction.
    Congress can, as today's hearing demonstrates, play a vital 
role in drawing attention to this unsustainable trade. We are 
confident that when given the opportunity to make a responsible 
choice, most consumers will do precisely that. But government 
must do more to better define the threats to our marine 
ecosystems, coral in particular; and in so doing, inform two 
key constituencies, constituencies that can make an immediate 
impact, consumers and retailers themselves.
    Before Tiffany stopped the sale of coral, I could say with 
near certainty that few, if any, of our customers understood 
the ramifications of their purchase decisions. However, I can 
also say with near certainty that once aware, few, if any, of 
those customers would knowingly contribute to the destruction.
    Similarly, the majority of retailers remain unaware of the 
destructive role they play by continuing to sell coral. Many 
naively believe that somewhere out there are forums where coral 
is grown and harvested, or that it can be simply and benignly 
gathered in the wild. Here research that drives understanding 
and informed decision-making is critical. Eradicating ignorance 
and skepticism, both genuine and willful, is essential if 
retailers are to be persuaded to take a stand.
    More specifically, we are hopeful that red coral will be 
listed under CITES Appendix 2. We urge the adoption of the 
Coral Reef Conservation Amendment Act to provide for a study of 
the full impact of the trade in coral, as well as improved 
monitoring enforcement.
    More information is desperately needed. And with that 
information, the effort to inform retailers and consumers about 
this destructive trade can be greatly strengthened.
    We also urge funding of the Deep Sea Coral Research and 
Technology program, and the effort to locate coral populations 
and develop approaches to their conservation.
    In conclusion, I hope the light this hearing can shed on 
the many threats to coral will cause both consumers to demand 
and retailers to wholeheartedly support a stop to this trade. 
As a jeweler, it strikes me that perhaps the greatest tragedy 
here is the insignificance of coral for the jewelry industry as 
a whole. And unlike gemstones or pearls or precious metals, 
which are vitally important to the jewelry industry, but can be 
produced responsibly, there is no such benign possibility for 
coral jewelry.
    To destroy our vital coral resources for something as 
insignificant as coral jewelry defies both scientific and 
economic logic, and simple common sense. We do believe that 
some things are simply too precious to wear. Thank you.
    [The prepared statement of Mr. Kowalski follows:]

Statement of Michael J. Kowalski, Chairman and Chief Executive Officer, 
                             Tiffany & Co.

    Since our company's founding in 1837, Tiffany has grown and 
prospered based upon one simple idea--the belief that ``good design is 
good business.'' Over the past 10 years, we have come to recognize that 
there is a vitally important 21st corollary, and that an unequivocal 
commitment to sustainability and protecting the natural world is also, 
undeniably, good business. There is today an enormous and fast growing 
concern among consumers about the impact their consumption decisions 
have upon the environment. And just as good design has been at the 
heart of the consumer appeal of Tiffany jewelry, so too does our 
commitment to sustainability today reflect the evolving desires of 
those very same consumers.
    I am here today speaking of course as a representative of Tiffany & 
Co. But more fundamentally, I am here speaking for our customers: 
customers who care deeply about the preservation of the natural world; 
customers who instinctively recognize that nature has been Tiffany's 
greatest designer and understand the imperative to protect the source 
of that inspiration; customers who trust us to make certain that in 
creating Tiffany jewelry we do everything possible to leave behind a 
world every bit as beautiful and complete as the one we inherited.
    So I testify here today not as an executive who cares about the 
environment, but rather as an executive who is simply responding to our 
customers' expectations. We have no doubt that consumers want jewelry 
that is sourced responsibly. Jewelry that contains precious metals that 
are mined responsibly; from mines that do not threaten wilderness or 
recreational values. Diamonds that do not fuel armed conflict. Rubies 
that do not support governments that abuse human rights. And jewelry 
that is inspired by the ocean's beauty, not jewelry that destroys the 
very beauty it seeks to celebrate.
    For the past eight years, the Tiffany Foundation has supported 
research focused on coral reef systems. And since 2003, Tiffany & Co. 
has helped protect coral in the most simple and direct way we could, by 
prohibiting its sale in our stores. To be frank, back then we acted 
more on faith than on fact, choosing to err on the side of caution 
rather than commerce when the survival of something as precious as 
coral was at stake. And today, while we remain committed, most retail 
jewelers, and certainly most consumers, are still sadly unaware of the 
global destruction of coral, and their complicity in that destruction.
    Congress can, as today's hearing demonstrates, play a vital role in 
drawing attention to the unsustainable trade in coral. We are confident 
that when given the opportunity to make a responsible choice, the 
majority of consumers will do precisely that. But government must do 
much more to better define the threats to our marine ecosystems, and 
coral in particular, and in so doing inform two key decision making 
constituencies that can make an immediate impact: consumers and 
retailers.
    Before Tiffany stopped the sale of coral, I can say with near 
certainty that few if any of our customers understood the ramifications 
of their purchase decisions. However, I can also say with near 
certainty that once aware, few if any customers would knowingly 
contribute to the problem.
    Similarly, the majority of retailers remain unaware of the 
destructive role they play by continuing to sell coral. Many of these 
retailers naively believe that somewhere, out there, are farms where 
coral is grown and harvested. Or that it can be simply and benignly 
gathered in the wild. Here research that drives understanding and 
informed decision making is critical. Eradicating ignorance and 
skepticism--both genuine and willful--is essential if retailers are to 
be persuaded to take a stand.
    More specifically, we are hopeful that Red Coral (Corallium), the 
most widely traded and valuable species, will be listed under CITES 
Appendix II. We urge adoption of the Coral Reef Conservation Amendments 
Act to provide for a study of the full impact of the trade in coral 
products--economic, social and environmental--as well as improved 
monitoring and enforcement. More information is desperately needed, and 
with that information the effort to inform retailers and consumers 
about this destructive trade can be greatly strengthened. We also urge 
funding of the Deep Sea Coral Research and Technology Program, and the 
effort to locate coral populations and develop approaches to their 
conservation.
    In conclusion, I hope the light this hearing can shed on the many 
threats to coral will cause both consumers to demand, and retailers to 
wholeheartedly support, a stop to this trade. As a jeweler, it strikes 
me that perhaps the greatest tragedy here is the insignificance of 
coral for the jewelry industry as a whole. And unlike gemstones, 
pearls, or precious metals, which are vitally important to the industry 
but can be produced responsibly, there is no such benign possibility 
for coral jewelry. To destroy our vital coral resources for something 
as insignificant as coral jewelry defies both scientific and economic 
logic, and simple common sense. Some things are indeed ``too precious 
to wear.''
                                 ______
                                 
    Ms. Bordallo. All right, thank you very much, Mr. Kowalski, 
for these important facts. And also to commend your company for 
what they are doing to protect the coral reefs.
    Mr. Sebunya, you are the final witness to be heard from.

STATEMENT OF KADDU SEBUNYA, DIRECTOR OF PROGRAM DESIGN, AFRICAN 
                      WILDLIFE FOUNDATION

    Mr. Sebunya. Madame Chairwoman and Members of the 
Committee, I am Kaddu Sebunya, Director of Technical Design at 
African Wildlife Foundation. Founded in 1961, the African 
Wildlife Foundation is the leading African international 
conservation organization focused solely on the African 
Continent.
    I want to thank you for holding this hearing on what we 
believe is one of the most important conservation challenges we 
face today. That is the connection between conservation of 
biodiversity and the economic aspirations of the people. In our 
case, Africans.
    Our view is that wildlife conservation and development are 
interlinked, and that truly sustainable wildlife conservation 
must provide for the needs of local people.
    The underlying theme for this hearing is on consumer demand 
for illegal wildlife in the U.S. But I am going to focus my 
statement on the supply side, because in order to address 
consumption factor in the U.S., we need to look at the market 
elements, as well as the very nature of the resource base, the 
supply side.
    Wildlife resource at the base is usually a low unit value, 
is a common resource freely accessible, is difficult to assess, 
and encourages free-rider behavior. In most of Africa, it is 
either without any owner, or is state property and separated 
from the local community.
    Therefore, the bushmeat problem could as well be resulting 
from unmanaged common resource being unsustainably tapped 
because of inadequate governance and policy frameworks.
    Tackling the main direct threats of wildlife conservation 
in Africa--that is, habitat loss, sustainable use--and the 
underlying drivers of threats--poverty, land ownership, weak 
land use planning, weak civil societies--requires the 
acknowledgment of the support for the linkages between wildlife 
conservation and local development goals and needs. And at the 
policy and governance level, many of the underlying causes of 
sustainable use of wildlife are the same as those underlying 
poverty: weak governance, war, famine, low incomes, savings, 
and unfair global terms of trade.
    With support from the U.S. Government through USAID, the 
U.S. Forest Department, and the U.S. Fish and Wildlife Service, 
we are working on these kinds of issues across Africa.
    For example, in the Democratic Republic of Congo, our 
priority response has been efforts to address local poverty 
through strengthening agriculture, and thereby reducing 
wildlife product dependence. We are also addressing ownership 
and right to uses.
    We are engaged in dozens of conservation community 
enterprises across Africa that offer alternatives to bushmeat 
trade, representing investments of several million dollars 
collectively. These projects promote tourism, sustainable 
community hunting grounds, fisheries management, livestock and 
other sustainable agricultural conservation. These projects 
also strengthen local societies and government systems.
    In conclusion, Madame Chairwoman, we know Africa's wildlife 
and wildlands add much in the world, and are one of the 
Continent's most significant sources of future competitive 
advantage in the global marketplace. Where wildlife exists, we 
should encourage African nations to conserve, expand, and add 
varied user resources by positioning themselves as crucial part 
of the development and sustainable growth strategies.
    We believe in the protection of wildlife in protected 
areas, but encourage careful monitoring and sustainable use of 
natural resources outside of protected areas. We see the price 
for all sustainable use as central to wildlife conservation 
efforts.
    Madame Chairwoman, the long-term challenge to wildlife 
conservation and bushmeat is how to make wildlife a renewable 
resource. With a clear economic and development advantage, 
conserving and managing it, rather than a resource that is 
mined steadily to extinction, and completely prohibited from 
sustainable use.
    Thank you, Madame Chairwoman and honorable Members.
    [The prepared statement of Mr. Sebunya follows:]

     Statement of Kaddu Kiwe Sebunya, Director of Program Design, 
                      African Wildlife Foundation

    Madame Chairwoman and members of the subcommittee, I am Kaddu Kiwe 
Sebunya, Director of Technical Design at African Wildlife Foundation 
(AWF).
    Founded in 1961, the African Wildlife Foundation is the leading 
African and international conservation organization focused solely on 
the African continent with a 45-year track record of facilitating 
practical, field-based solutions to global and local sustainable 
natural resource management and wildlife conservation challenges in 
Africa.
    I want to thank you for holding this hearing on what African 
Wildlife Foundation believes is one of the most important conservation 
challenges we face today--the connection between the conservation of 
biodiversity and the economic aspirations of the people, in our case 
Africans. Our view is that wildlife conservation and development are 
inter-linked, and that truly sustainable wildlife conservation must 
provide for the needs of local people.
    The underlying theme for this hearing is on ``consumer demand of 
illegal wildlife in USA,'' but I am going to focus my statement on the 
``supply side'' because we have long understood that the illegal 
wildlife trade cannot flourish in a vacuum. Before I do that, though, I 
want to emphasize that African Wildlife Foundation is actively working 
to stop the illegal bushmeat trade, most notably through its support of 
USFWS--Bushmeat MENTOR program that is developing a network for 
bushmeat information sharing throughout East Africa. We are also deeply 
involved in enterprise programs that make harvesting endangered 
wildlife a more costly option than conserving it.
    To address the consumption factors driving the illegal bushmeat 
trade, or the ``supply side,'' we need to look at the market elements 
as well as at the very nature of the resource. Wildlife resource at the 
base is usually of a low unit value, is a common resource freely 
accessible, is difficult to assess, and encourages free-rider behavior. 
In most of Africa, it is either without any owner or is state property 
and alienated from local communities. Therefore, the bushmeat problem 
could as well be resulting from an unmanaged common resource being 
unsustainably tapped because of inadequate governance and policy 
frameworks.
    In Africa, we have long-recognized that the encouragement of 
sustainable use, rather than prohibition, is the most practical 
umbrella policy with regards to wildlife conservation. Trade bans are a 
blunt and limited intervention strategy. Though, that said, where use 
for commercial gain is a critical threat for specific species, notably 
for elephant and rhino in Africa, global trade restrictions have been a 
useful component of wildlife conservation strategies.
    Tackling the main direct threats to wildlife conservation in Africa 
(habitat loss, unsustainable use) and the underlying drivers of these 
threats (poverty, climate change, tenure issues, weak land use 
planning, subsidies for agriculture, weak civil society organizations 
and governance issues) requires recognition of and support for the 
linkages between wildlife conservation and local development goals and 
needs. At the policy or governance level, many of the underlying causes 
of the unsustainable use of wildlife are the same as those underlying 
poverty--weak local governance, war, famine, low incomes and savings, 
unfair global terms of trade, etc.
    African rural people, moving from a subsistence lifestyle to a cash 
economy, have relatively few options; unsustainable or consumptive use 
of wildlife resources is often a matter of survival. They often lack 
the education and skills to easily find alternative employment and 
cannot switch to different livelihoods or food sources.
1. Our program efforts
    The long-term challenge to wildlife conservation is how to make 
wildlife a ``renewable'' resource, with a clear economic and 
development advantages to conserving and managing it, rather than a 
resource that is ``mined'' steadily to extinction. To achieve this, all 
stakeholders must work together to put in place a complementary suite 
of policy, planning and implementation tools, to ensure that 
conservation and development linkages are optimized.
    One of the issues where the debate about trade instruments has 
arisen concerns the harvesting of ``wild meat'' or ``bushmeat''. The 
bushmeat trade in West and Central Africa has been a particular focal 
point for concern over the past decade, not least because of its 
perceived threat to African great apes, namely chimpanzees, bonobos and 
gorillas. Research demonstrates that the bushmeat trade does threaten 
these species, particularly where hunting is conducted in protected 
areas and timber concessions. However, the bulk of bushmeat hunting is 
of non-endangered species and is done by very poor people--this 
therefore constitutes a clear argument against using any form of 
blanket ban on bushmeat harvesting as a conservation mechanism. A 
blanket ban is likely to punish the very poor without addressing the 
underlying issues that have allowed the bushmeat trade to thrive--that 
is, lack of natural resource management planning and the need to give 
wildlife conservation in and of itself economic value.
    The effectiveness of alternative policy and management options to 
extinguish the illegal bushmeat trade continues to be a focal point for 
conservation stakeholders across West and Central Africa. African 
Wildlife Foundation with support from the U.S. government through 
USAID, USFD, and USFWS is working on these issues in the Democratic 
Republic of Congo. Priority responses include (i) efforts to address 
local poverty through strengthening agriculture and thereby reducing 
forest product dependency; (ii) efforts to address tenure and rights 
issues, firstly through effective local land use planning, and 
subsequently through regulation and licensing of local bushmeat trade 
and consumption; (iii) pilot projects addressing community forest 
management as a means of strengthening forest management overall and 
implementing new national forest policy and regulations.
    We are engaged in dozens of conservation enterprises with 
communities, representing investments of several million dollars 
collectively. These trade and investment projects promote conservation 
tourism, culture-based tourism, sustainable community hunting grounds, 
fisheries management, livestock and other sustainable agriculture 
ventures, traditional handicrafts creation and distribution, and non-
timber forest products. These projects also strengthen local civil 
societies and governance systems; benefits investment and management, 
and address land tenure and gender equity.
    Our enterprise programs are a key intervention strategy in support 
of sustainable wildlife use. Enabling communities to participate, and 
often own, commercially successful businesses with clear conservation 
logic is a strategy that warrants further support. For example with 
support from the U.S. Government and private individuals, African 
Wildlife Foundation has recently facilitated new community-owned luxury 
gorilla tourism facilities in Uganda and Rwanda, enabled the resumption 
of river trade in agricultural commodities in Democratic Republic of 
Congo, and created an innovative revolving debt facility for livestock 
value enhancement in pastoralist areas of northern Kenya. These 
programs address many rural communities' simple but highly 
consequential dilemma: finding a creative way to benefit from the 
presence of wildlife. Our conservation enterprise strategy strives to 
help communities and governments undertake business ventures that 
support both livelihoods and wildlife conservation.
2. Our efforts in USA
    While we do not have field programs in USA, we place a high 
priority on partnerships as a means of delivering wildlife conservation 
and thereby bridging policy stances in the U.S. and Africa.
    African Wildlife Foundation is currently supporting the USFWS--
Bushmeat MENTOR program that is developing a network for bushmeat 
information sharing throughout East Africa, which will be enormously 
helpful in gathering together scattered information on wildlife 
populations, threats and solutions to the bushmeat crisis. There has 
been a high level of commitment and investment in the training and 
support of the eight African fellows. Our technical staff has been 
involved in training the fellows, from leading sessions on programming 
conservation and development, to conceptual modeling, management and 
monitoring programs.
    In collaboration with U.S. Department of the Interior, we have 
supported national parks and other protected-area authorities in 
Tanzania, to improve conservation management (including planning, law 
enforcement, and monitoring trans-boundary cooperation). Partnering 
with the U.S. Forestry Department, we support Democratic Republic of 
Congo government and individual landowners and communities to make land 
use plans in order to secure wildlife movement corridors, habitat 
linkages, dry season refuges, wildlife dispersal areas, plus 
enterprises development--critical alternatives to the bushmeat trade.
    Through our membership with the U.S. based Bushmeat Crisis Task 
Force we have learned from their research that U.S. government agencies 
have a difficult time in addressing bushmeat that enters the U.S. every 
month. While there are laws that address wildlife importation and laws 
that address meat import, there is only one law that specifically 
mentions bushmeat, and that law targets live African rodents and 
primates, not dead ones smoked for their meat. Another challenge is the 
overlapping jurisdictions by numerous U.S. government agencies having 
shared authority over bushmeat shipped in commercial containers. In 
addition, the U.S. government does not have a bushmeat information 
management and analysis system that could provide central location for 
storing and retrieving information for coordinating its efforts to 
address the bushmeat problem within U.S. borders.
    USA should focus not only on the illegal bushmeat trade but also on 
the risk of the introduction of emerging infectious diseases through 
bushmeat--Monkeypox, SARS, Ebola, etc. We do not know much about the 
disease incidence for different species or bushmeat preparations 
(smoked, fresh, etc.) because in the U.S. confiscated bushmeat is 
routinely destroyed rather than tested for disease or contaminants. 
There is a great need for additional resources not only to detect 
illegal bushmeat but also to test it so that the government can more 
strategically address the risks involved and share their findings with 
African governments and institutions.
3. Conclusion
    Africa's wildlife and wild lands are unmatched in the world and are 
one of the continent's most significant sources of future ``competitive 
advantages'' in the global marketplace. Where wildlife exists, African 
Wildlife Foundation encourages African nations to conserve, expand and 
add value to those resources and to position them as a critical part of 
development and growth strategies for the future of the continent, 
reflected in national strategies for poverty alleviation and for the 
achievement of the Millennium Development Goals.
    African Wildlife Foundation believes in the protection of resources 
within formally designated national parks, but encourages carefully 
monitored and sustainable use of natural resources outside these more 
restricted areas to ensure that human needs and aspirations are 
satisfied while maintaining ecosystem viability. Understanding that 
ecosystem function and biodiversity resources cannot be conserved 
through protected area systems alone, but requires sustainable 
management at scale, we see the principle of sustainable use as central 
to conservation efforts.
    African Wildlife Foundation respects the principle that the owners 
and users of land and wildlife resources must be given the primary 
stake in their management and in the benefits generated. African 
Wildlife Foundation supports strong, secure, tenure arrangements for 
local communities living with wildlife on their land, and effective 
national policy and legal frameworks that protect tenure and rights. 
African Wildlife Foundation has a particular interest in developing and 
applying models that give local communities a large and defining 
financial stake in the resources they conserve and in promoting public 
and private investments in enabling and replicating these models.
    The challenge has been to encourage appropriate and sustainable 
development opportunities throughout the communities living in 
scientifically identified wildlife landscapes, to ensure that they have 
the opportunities to lift themselves out of poverty without 
jeopardizing conservation goals. In African Wildlife Foundation's view, 
it is both practical and important that wildlife conservation work 
maintains a focus on improving livelihoods, and we aim to do this while 
maintaining close monitoring of resulting benefits and costs to the 
environment.
    African Wildlife foundation firmly believes that Africans are ideal 
stewards of Africa's natural resources. To that end, we invest heavily 
in the training and education of Africans to help them take the lead in 
managing and benefiting from their own natural heritage.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Sebunya, for your 
very informative testimony.
    And now we will have questions to the witnesses. I would 
like to begin first with Mr. Perez, Fish and Wildlife.
    I would like to talk a little bit more about your buyer-
beware program. How much funding did the Fish and Wildlife 
Service receive for the buyer-beware brochures?
    Mr. Perez. Madame Chairwoman, I don't have the exact figure 
to the extent that we collaborated with World Wildlife and 
TRAFFIC USA. I expect--excuse me?
    Ms. Bordallo. Do any of your, do you have some members of 
the Department with you that could answer that?
    Mr. Perez. No, ma'am. That is an amount that we will have 
to get with you. But ultimately, the way the cooperative effort 
went forth is really just sharing the information, and sharing 
ultimately what was, what was probably provided--and I can say 
that because we have had these collaborative efforts before--is 
that the printing is typically--yes, that is correct, those 
items there--is picked up by World Wildlife Fund.
    And I would ask Mr. Allan if he can elaborate perhaps on 
their contribution.
    Ms. Bordallo. All right. I am going to----
    Mr. Perez. And I will be happy to get the dollar figures 
for you.
    Ms. Bordallo. I am going to get to Mr. Allan, but, further 
on this. How many of the brochures does the Fish and Wildlife 
print annually?
    Mr. Perez. I believe the printing is done by the World 
Wildlife Fund, in coordination with them. There is----
    Ms. Bordallo. Well then, I had better get with Mr. Allan, 
then. Does anybody know the answer to that? Yes, Mr. Allan?
    Mr. Allan. Thank you, Madame Chairwoman. I believe the last 
print run of just the leaflet that you have in your hand there 
with the toucan on the front was around 30,000 leaflets. Those 
were distributed and used very rapidly. There is a need for 
more of these materials, absolutely.
    Ms. Bordallo. What was the funding amount on this?
    Mr. Allan. The funding for the print runs of just leaflets 
in themselves is relatively small. I mean, it is less than 
probably $10,000. But that really isn't enough. We are only 
scratching the surface with such a small number of leaflets. 
And a more broad campaign would be appropriate if funding were 
available, such as displays within airports and ports, posters, 
web-based materials as well, that were much more perhaps 
interactive and engaging. Those things cost a lot more, but 
they would be far more wide-reaching and more effective in 
getting the message across.
    Ms. Bordallo. The next question then is along the same 
line. With 8.5 million people leaving on cruises from U.S. 
ports annually, and even more traveling abroad on planes, is 
that a sufficient number? You said it wasn't sufficient, and 
where else are these distributed?
    Mr. Allan. No, that absolutely isn't a sufficient number, 
and we really do need more. And they should----
    Ms. Bordallo. Where do you distribute these?
    Mr. Allan. These are distributed through ports and 
airports, and throughout the U.S.
    Ms. Bordallo. Schools?
    Mr. Allan. Not so much schools, no. It is mainly for 
travelers, so they are aware of what they are to avoid buying 
when they are traveling. But there is much more of a need for a 
broader program.
    The school's sort of engagement happens much more through 
Suitcase for Survival, which goes to zoos and other 
institutions. And it is more of an educational pack. There is 
an educational tool kit as well that World Wildlife Fund 
produces that is aimed much more at schools.
    Ms. Bordallo. I guess what we are looking at here is more 
funds, right? To be able to provide and print more of these 
brochures.
    You have no idea, Mr. Perez, what money the budget is for 
this at the present time?
    Mr. Perez. I can get that number to the extent that we 
committed funds to have that printed. But I would say, Madame 
Chairwoman, that ultimately I would expect that the bulk of the 
printing and the actual costs, other than in-kind support from 
our office, is probably borne by TRAFFIC.
    Ms. Bordallo. Back to Mr. Allan now. You said that the 
campaign could be modernized. Could you explain what you mean 
by that?
    Mr. Allan. Thank you, Madame Chairwoman. Yes, I think that 
there probably is a need to go beyond just the casual leaflet, 
that the people don't necessarily have the time to look at when 
they are in a rush to get on a plane or onto a cruise ship. I 
think there are other ways that we can do this.
    And if you look at the other leaflet you may have there 
called the Caribbean Buyer Beware, that actually was perhaps a 
little book that was more proactive, in that once you disembark 
in a port in the Caribbean, you actually see those posters and 
leaflets available once you are there, when you have much more 
leisure time to peruse. And those are also held in things like 
local museums and other places in those countries.
    So there is sort of a two-pronged approach here of getting 
the information out, not just within the U.S., but also in the, 
if you are talking about tourists, within those key tourist 
areas abroad, where U.S. tourists particularly frequent.
    So for example, in the Dominican Republic, in the example I 
talked about earlier with the real major problem of hawksbill 
turtle shell being very widely available. There is a move to 
try and develop some initiatives with the Dominican Republic 
Government and organizations like the U.S. State Department and 
NOAA are also working with us, looking at how we can raise 
awareness in those ports. So that when the cruise ship 
passengers actually disembark, they are actually made aware 
very clearly, both on the cruise ships and when they are in the 
ports, about what the problems are of buying those products.
    Ms. Bordallo. Well, all of these ideas are good. But I do 
think that, you know, we have to put more funding into this. We 
have to get this information out. I think Mr. Kowalski 
mentioned the fact that a lot of this is just people are naive; 
they don't know about it. They are not told. And I think if 
they are, and more information is put out there, that we would 
have less of a problem.
    I wanted to ask you, Mr. Perez or Mr. Allan, can you talk a 
little more about the Suitcase for Survival? I see all the 
items here. But you know, a lot of this doesn't pertain to the 
territories. We have other things, like sea turtles, 
tortoiseshell, all of these. Would you have some kind of a 
survival kit just designed for the territories? I mean, we 
don't see lions and leopards and things like that. So I am just 
wondering, is there something specifically for, I think you 
mentioned the Caribbean? Somebody mentioned that in your 
statement.
    Mr. Perez. I will be happy to elaborate a bit more. 
Suitcase for Survival has been one of our, one of our really 
significant efforts that we try to utilize. We have a warehouse 
in Commerce City, Colorado, that is full of much more than the 
kind of items you are seeing in front of you, including the 
types of items that are found out in the Pacific Rim.
    To the extent that the Suitcase for Survival has a pretty 
significant training curriculum that is actually put together 
in concert with supporting organizations, plus the Fish and 
Wildlife Service, to be accurate in the instruction of the 
course, the items themselves are basically treated on a case-
by-case basis for a single schoolteacher from a particular 
independent school district, or a school district anywhere, be 
that in Guam or in Los Angeles, can actually kind of give us 
information to the extent that they want to focus on a 
particular type of species.
    So we don't, we wouldn't necessarily send something that is 
a spotted cat to a place that they really have no interest in 
wanting to focus on that. But while we have some items that are 
common to the Suitcase for Survival, it is basically a bundling 
of a lot of these types of things.
    We have the flexibility on the individual request to do 
exactly what you are saying. It is focus on the species that 
are more prevalent in the area, or more problematic.
    Ms. Bordallo. My next question is, are you aware, has 
anything ever been sent to Guam or American Samoa or Virgin 
Islands?
    Mr. Perez. To the extent that I have a specific private-
sector request, I am not sure. But our office in Guam, and I 
can get that, certainly get that answer, because we catalog 
every suitcase that we sent out and where it goes. We have that 
data available. I don't have it with me, but we do provide this 
material in the suitcase, and information to all our offices 
that are there.
    So our Wildlife Inspection Office in Guam would have one if 
somebody locally wanted to borrow that.
    Ms. Bordallo. Well, I wish to make a request: To see that 
this is sent immediately to Guam, and certainly the brochures 
and anything else, any information.
    Now, I do know that tortoiseshell jewelry, sea turtles, 
these are on the endangered list and illegal. But I haven't 
heard much else. And I think that we have to begin with the 
schools, and of course anybody else. So I can hope that you 
will contact my office here in D.C., and we will be able to 
send one of these survival kits to--and not just Guam. I am 
speaking on behalf of all the territories. I kind of have a 
feeling that maybe this hasn't been done. So hopefully we will 
get that accomplished.
    My next question is for Mr. Allan. You are on the hot seat 
today, Mr. Allan. Are you aware of any research on the 
effectiveness of different educational messages in curbing the 
demand for wildlife products?
    For example, is it more effective to teach the public about 
the regulations guiding the trade, the penalties they could 
face if they participate in the trade, or the dangers the trade 
poses to threatened wildlife species?
    Mr. Allan. Thank you, it is a pleasure to be in the hot 
seat.
    I just would like to say that there has been a number of 
initiatives aimed at looking at consumers, in terms of 
educating consumers, particularly in traditional Chinese 
medicine. And those have happened in traditional Chinese 
medicine communities around the world, including analyses that 
happened in some of the major communities within the U.S. And 
those analyses have been very effective in targeting the right 
messaging to the consumers to dissuade them from using 
endangered species within traditional Chinese medicine. Those 
messages have now to target really what makes people buy those 
endangered species.
    And really, it was working with the industry itself that 
added the most weight to that, by getting the experts in 
traditional Chinese medicine to actually put out the message 
that you don't need to use endangered species.
    So within trade there is a number of elements. And 
obviously we have an amazing advocate here for protecting 
corals from Tiffany's as well, Mr. Kowalski. So through the 
trade, there is a very strong message that can be given out.
    Through schools and education of others, I think that is 
obviously critically important to get people while they are 
young, and to build up an ethic within those people about the 
need to protect endangered species, and our environment 
generally. And I am happy to say that I think a lot of 
initiatives nowadays are really focusing in on the environment.
    In terms of doing analysis on that, we have not in recent 
years done analysis on the effectiveness of educational 
programs on schoolchildren. However, I do think there are a 
number of ways that we could really be a bit more 
technologically savvy in terms of outreach to others like that, 
through, you know, doing things like podcasts, so people can 
download them for their iPods, and getting movies on websites, 
and interactive features in games. Some of those things are 
happening.
    Our colleague from WildAid featured a number of really 
great stuff that they are doing in terms of the visual and the 
video media. He may be able to add something to that. But I 
have not been involved, TRAFFIC has not been involved with 
currently looking at educating schoolchildren, no.
    Ms. Bordallo. Would any of the other witnesses like to add 
to that?
    Mr. Bigue. Just to add a bit. Essentially what we have seen 
as the primary medium, you know, we have taken a page off what 
our corporations use, in terms of using celebrities and star 
power to influence people to purchase things. So what we try to 
do is use that star power to dissuade people from purchasing 
different products.
    And we have had surveys carried out in Hong Kong, Taiwan, 
and Thailand. And we have seen that consumption has been 
reduced. The problem is that these evaluation studies are so 
expensive, that it is just beyond our budget capacity.
    Ms. Bordallo. And yes, Mr. Kowalski.
    Mr. Kowalski. And I think, you know, I would emphasize, as 
I tried to do in my remarks, the power of retailers, the power 
of wholesalers, the power of intermediaries to assume for 
issues of sustainability, the same role that we assume across 
the spectrum of efforts to market to consumers.
    You know, we present jewelry to consumers, and we make the 
proposition please buy it because we believe it is beautiful. 
We also say please buy it because we believe it is sustainable, 
or it is not threatened.
    I think sometimes consumer education is a very, very 
difficult task. And I think there is a latent resource here. 
Retailers, in a vast majority of cases, want to anticipate 
consumers' needs. They want to be on the forefront, and they 
would like to see threats on the horizon.
    So I think to the extent that we are, of course, dealing 
with limited resources, to the extent efforts can be focused 
against the retail industry that cares, who is in fact in the 
business of anticipating consumer needs, that may be a more 
efficient way that we haven't sufficiently taken advantage of. 
That would be my jewelry experience, and I know that is very 
limited.
    Ms. Bordallo. Very good. And I applaud your company again 
for----
    Mr. Kowalski. Thank you.
    Ms. Bordallo.--the work they are doing in this effort.
    Mr. Sebunya, do you have a comment?
    Mr. Sebunya. I will just add to that. Again, bring the 
stories from the source of these products. Going out then, the 
program we are involved in with the Fisheries Service in East 
Africa, where we are researching and assisting the impact of 
this trade to the local communities. And taking those stories 
and bringing them here to the consumers I think brings the 
emotions and attachments, and the reality of the impacts to 
this trade, not only to the wildlife, but also to the 
beneficial result of the resources in the consumer base.
    Ms. Bordallo. I thank you very much for your comments. Now 
I have a couple of questions for Mr. Bigue. And I would like to 
excuse our Ranking Member; he went down on the Floor to do a 
one-minute on energy. So hopefully he will be back.
    Mr. Bigue, why do you think actors, production companies, 
and stations are so willing to participate in WildAid's 
campaign? And what amount of funding do you think would be 
needed to make an impact in the United States?
    Mr. Bigue. Thank you, Madame Chairwoman. I would say that 
they participate in the campaigns because they basically 
believe in the cause. And I believe once you get a few key 
people on board, like Jackie Chan or Yao Ming, it is much 
easier to recruit more celebrities. And at this point in time 
we have over 80 wildlife Ambassadors at this point in time.
    With respect to your, the second part of your question, in 
terms of the costs of the campaign, correct?
    Ms. Bordallo. Funding, what amount of funding do you think 
would be needed.
    Mr. Bigue. What we estimate is roughly about $3 million. 
Because we are able to leverage the media and get pro-bono 
productions done, it essentially lowers the cost quite a bit. 
So we think we can confidently, you know, put together a large 
national campaign for about $3 million.
    Ms. Bordallo. And all your funding comes from private 
contributions, is that correct?
    Mr. Bigue. Foundations and individuals.
    Ms. Bordallo. Foundations, grants.
    Mr. Bigue. And some U.S. Government. We have received a 
couple----
    Ms. Bordallo. Oh, you do have some.
    Mr. Bigue. We have received two grants from the State 
Department, one for filming a PSA with Harrison Ford, and then 
we just recently received another grant to film a PSA with Jane 
Goodall. And that is just, that is actually going to be filmed 
in New York this Friday.
    Ms. Bordallo. Oh, very good. What locations or places would 
be the most effective to place public service announcements, in 
your opinion?
    Mr. Bigue. Well, besides television, that works? It would 
be international airports. Because there are your key 
travelers, the people who have discretional income. That is 
your, that is our key target. That is where we focused our 
campaigns in Asia, specifically in China, and we think that 
would definitely be the point, the focal point as well in the 
United States.
    Ms. Bordallo. All right. Mr. Kowalski, I have a few for 
you. You mentioned the power that you have as a retailer to 
control consumer demand. In your testimony you mentioned that 
you think most retail jewelers and most consumers are sadly 
unaware of the global destruction of coral, and their 
complicity in that destruction.
    Do you think other jewelers would follow your approach if 
they were aware? And if so, do you have ideas about how that 
awareness could be increased?
    Mr. Kowalski. Absolutely. I think part of the issue, of 
course, is clarity and credibility. Jewelers, as you obviously 
would know, are not naturalists. And when the debate becomes 
complex, I think there is a reluctance to take risks. And given 
the lack of clarity around certain of these issues, I think 
there is a natural conservatism and reluctance to act.
    However, I think with the leadership of a few people in the 
industry and the support of industry organizations like the 
Jewelers of America, which has a very active ethical 
initiatives committee, I do believe that, that jewelers are 
willing to act. And quite frankly, I am hoping that the 
reporting and the news surrounding this hearing will help those 
of us in the industry who are trying to get the rest of our 
fellow retailers to act, will be strengthened. So that this is 
a source of, I think just doing what we are doing here today 
will provide a great impetus.
    Ms. Bordallo. Has Tiffany ever gone beyond their own retail 
stores to try and engage other jewelers or other----
    Mr. Kowalski. Yes, we have. We have tried to use the power 
of leadership. Obviously we are not a large company, but we are 
modestly a legendary company, and we certainly try to use the 
power of the brand to encourage others to follow our lead in 
certain areas, like our decision not to sell rubies many, many 
years ago. Our efforts on behalf of U.S. mining reform.
    And again, I think there is, with appropriate 
understanding, a great willingness on the part of retailers 
trying to understand and correctly anticipate the needs of 
their customers, that supporting these efforts makes long-term 
business sense. And I think that is the key argument that we 
have made, that this makes--it is not about doing good, it is 
not about being an environmentalist; it is about satisfying 
your customers' needs. And that makes good strategic business 
sense.
    Ms. Bordallo. You also mentioned that few customers 
understand or understood the ramifications of their purchase 
decisions, but that once aware, few would knowingly contribute 
to the problem. I think you have captured the problem with not 
just coral, but the illegal and unsustainable wildlife trade 
generally.
    Beyond your decision to stop selling jewelry with coral, 
how does Tiffany support public education about the need for 
coral reef conservation?
    Mr. Kowalski. Most of that effort would, would be the work 
conducted by the Tiffany Foundation. The Tiffany Foundation is 
supporting the Too Precious to Wear campaign, which is an 
effort led to----
    Ms. Bordallo. Too Precious to Wear?
    Mr. Kowalski. Too Precious to Wear, excuse me, Too Precious 
to Wear.
    Ms. Bordallo. It is a good motto.
    Mr. Kowalski. Yes, indeed, it is. And that, quite frankly, 
is directed at fashion leadership in the United States, the 
belief that fashion editors and other strong influencers can be 
made to understand the threats that we are talking about here 
today. That they will do their part in leading public opinion. 
And then there are several other organizations within the 
foundation.
    I should point out obviously the Tiffany Foundation is 
separate and apart from Tiffany & Company. So those decisions 
are made in----
    Ms. Bordallo. We figured that. Coming from the private 
sector, do you think there are things the government could do 
in partnership with private industry to further this effort? I 
mean, what could we do at this point in time?
    Mr. Kowalski. You know, I think certainly all the efforts 
that have been spoken about today in terms of public education 
are critical. I would simply suggest or submit, as I mentioned 
a while ago, Madame Chairwoman, that if we focused some of that 
effort against retailers themselves, against a more limited 
audience that in fact is in the position to make critical 
decisions on behalf of their customers or on behalf of their 
constituents, that that might simply offer a more cost-
effective approach, rather than the daunting task of public 
education, especially across such a wide range of threats that 
we are asking consumers to be aware, we ask a lot of consumers 
in terms of being aware of a variety of things.
    And I think it is the role of the retailer to act as a 
filter, and to help suggest to the consumer, to the customer, 
we really think this is important and we will act accordingly 
on your behalf.
    Ms. Bordallo. Very good. I appreciate your support for the 
Coral Reef Conservation Act amendments that passed the House. 
And you know that it is pending in the Senate.
    As you mentioned, the bill provides for a study of the 
impact of the trade in coral and improved monitoring and 
enforcement. How do you think this information could be used to 
better inform--well, I guess you did answer that--consumers and 
retailers, pretty much?
    Mr. Kowalski. Yes. And again, I would put an emphasis on 
using that information on a personal level. On an industry 
level, we would use that to inform retailers. And I think that 
would be a very effective use of that information.
    Ms. Bordallo. OK. And I have a question here for Mr. 
Sebunya.
    Would ending the demand for bushmeat in the United States 
through consumer education alleviate the pressure on 
biodiversity levels in East Africa?
    Mr. Sebunya. Thank you. It would, definitely. But I think 
there is more to that, though. I think the biggest problem from 
the Africa side is the management of this wildlife, more than 
even the consumption, because of the health problems associated 
with that.
    So I would like to see the ban of bushmeat trade in the 
U.S. But I would also like to see encouraged the investigation 
of the health aspect of that. And also supporting governments 
in Africa in channeling that information to the people involved 
in that trade, but also supporting us to offer alternatives to 
the people who are benefitting from this trade. Not necessarily 
so in the consumption side, but offering alternative for their 
incomes, and while supporting the management of the productive 
areas. Those are, I believe, the key issues.
    But the direct access, yes, that would be a big part of the 
support.
    Ms. Bordallo. Another question I have. You mentioned your 
organization's support for locally owned tourism facilities in 
Africa aimed at facilitating sustainable wildlife use.
    Do you find it worthwhile to educate tourists and the 
communities you work in on the importance of conservation to 
maintain that tourist industry?
    Mr. Sebunya. Yes, Madame Chair. A big part of our program 
is products we produce, is ecotourism products, which a big 
part of that is education of the tourists, on the behaviors, 
their behaviors while they are on these sites. But also it 
involves what they purchase at site. It also involves the 
cultural aspect of that.
    But also they come back with a package of information they 
share back home here. But also in that regard, we partner with 
the national zoos in the U.S. to educate people, not only 
tourists, but educate the schools who come through about the 
tourist products. We offer balance of the behaviors of tourists 
outside, and their footprints as far as wildlife is concerned.
    Ms. Bordallo. Thank you, thank you very much. Back to Mr. 
Perez.
    In your written testimony you mentioned working with the 
Federal Express and the United Parcel Service to improve 
compliance with wildlife trade laws. After your work with those 
companies, how are they improving their efforts at monitoring 
the malls and other, or the mail and other shipments?
    Mr. Perez. The most significant thing that we have done 
with the two parcel-post hubs of the U.S., one of them is a 
major port for UPS and also for FedEx, is actually we have 
staff there. So the biggest contribution they have made is to 
actually accommodate staff, our staff. Our wildlife inspectors 
in fact are stationed and assigned in working with them.
    And to the extent that we have full access to just about 
everything that comes through their facilities, that is the 
most significant thing that they have done. They have opened 
their doors, and we actually have staff that are working there, 
with office space that is provided by them, also.
    Ms. Bordallo. All right. Would any of the witnesses like to 
make any concluding comments on this very important issue 
before we adjourn?
    [No response.]
    Ms. Bordallo. I guess we have asked them all. I want to 
thank all of the witnesses for their participation in the 
hearing today. And Members of the Subcommittee may have some 
additional questions for the witnesses. I am sure--Mr. Brown 
was not able to get back with us, but I am sure he does have 
some questions.
    We will ask you to respond to these in writing, if you 
should receive any questions. And the hearing record will be 
held open for 10 days for these responses.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the Members of the Subcommittee, 
and particularly our very excellent group of witnesses this 
morning for their testimony.
    The Subcommittee now stands adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
